<html>
<title> - VIOLENCE AGAINST WOMEN: GLOBAL COSTS AND CONSEQUENCES</title>
<body><pre>[Senate Hearing 111-346]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-346
 
         VIOLENCE AGAINST WOMEN: GLOBAL COSTS AND CONSEQUENCES

=======================================================================



                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 1, 2009

                               __________

       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html



                  U.S. GOVERNMENT PRINTING OFFICE
55-738                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       BOB CORKER, Tennessee
BARBARA BOXER, California            JOHNNY ISAKSON, Georgia
ROBERT MENENDEZ, New Jersey          JAMES E. RISCH, Idaho
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHN BARRASSO, Wyoming
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
JEANNE SHAHEEN, New Hampshire        JAMES M. INHOFE, Oklahoma
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
                  David McKean, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                                    (ii)        




                            C O N T E N T S

                              ----------                              
                                                                   Page

Cammaert, Maj. Gen. Patrick, former military adviser to the U.N. 
  Secretary General, former U.N. Force Commander for the Eastern 
  Democratic Republic of Congo, New York, NY.....................    25
    Prepared statement...........................................    28
Gupta, Dr. Geeta Rao, president, International Center for 
  Research on Women, Washington, DC..............................    36
    Prepared statement...........................................    39
Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................     1
Rapp, Hon. Stephen, Ambassador at Large for War Crimes Issues, 
  Department of State, Washington, DC............................    12
    Prepared statement...........................................    14
Soler, Esta, president and founder, Family Violence Prevention 
  Fund (FVPF), San Francisco, CA.................................    44
    Prepared statement...........................................    45
Steinberg, Hon. Donald, deputy president, International Crisis 
  Group, former Ambassador to Angola, Brussels, Belgium..........    29
    Prepared statement...........................................    31
Verveer, Hon. Melanne, Ambassador at Large for Global Women's 
  Issues, Department of State, Washington, DC....................     3
    Prepared statement...........................................     7
    Responses to questions submitted for the record by Senator 
      Robert P. Casey, Jr........................................    56

              Additional Material Submitted for the Record

Lugar, Hon. Richard G., U.S. Senator from Indiana, prepared 
  statement......................................................    53
Dodd, Hon. Christopher J., U.S. Senator from Connecticut, 
  prepared statement.............................................    54
Feingold, Hon. Russell D., U.S. Senator from Wisconsin, prepared 
  statement......................................................    54
Durbin, Hon. Richard J., U.S. Senator from Illinois, prepared 
  statement......................................................    55

                                 (iii)




         VIOLENCE AGAINST WOMEN: GLOBAL COSTS AND CONSEQUENCES

                              ----------                              


                       THURSDAY, OCTOBER 1, 2009

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 3:05 p.m., in 
room SD-106, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Boxer, Shaheen, and Kaufman.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. Well, I hardly need to bang the gavel. I've 
never been with such a pre-in-order hearing in my life. 
[Laughter.]
    Thank you.
    I apologize for the delay, but I think, as you all know--
you can see, from the lights on the clock back there, that 
we're on the back end of another vote. And we just had two 
votes, and that's why we are delayed. And I appreciate your 
indulgence.
    We're here today to talk about violence against women, a 
subject that is, frankly, too often separated from our larger 
discussion about global instability, insecurity, and violence 
in general. We did some research and learned that this is the 
first time that violence against women on a global scale has 
been the subject of a hearing of the full Senate Foreign 
Relations Committee. So we're all part of a groundbreaking 
occasion today.
    One of the core tenets of the new administration's approach 
to security has been to go beyond the traditional categories to 
factor in the challenges of global health, global climate 
change, and global finance. The President and the Secretary of 
State have rightly put women at the very center of this broader 
global agenda. It is a fact--and you can see it, analyzing 
countries across the world--that societies where women are 
safe, where women are empowered to realize their aspirations 
and move their communities forward, are healthier and more 
stable societies. Societies that deter violence against women 
are better prepared to grow economically and less prone to 
conflict and bloodshed, and better equipped to root out 
terrorism and insurgency before they emerge. And I challenge 
anybody to go analyze those realities.
    If every society respected and valued women equally, 
America's international burden would be smaller and our people 
would be safer. That goal ought to be recognized as crucial to 
global security and America's security, going forward.
    This hearing comes at a tragic but timely moment. Just 
yesterday, credible reports from Guinea--I remember reading the 
newspapers yesterday morning and just in shock as I read the 
accounts of what took place--stories of women sexually 
assaulted by police, soldiers, and ordinary civilians during a 
protest in plain daylight. Even when seeking aftercare, women 
were harassed, and in many cases, it was the victims of rape 
who were arrested. As shocking as these stories are, and for 
all the collective international outrage, acts like this 
continue with impunity and on a harrowing scale.
    The U.N. says that up to 6 out of every 10 women worldwide 
experience physical or sexual assault and violence in their 
lifetime. The World Bank has found that, for women and girls 
between the ages of 16 and 44, rape and domestic violence are 
more dangerous than cancer, motor vehicle accidents, war, and 
malaria.
    Domestically, our government has worked for years to 
address violence against women. I was proud to be part of those 
efforts and initiatives back in the 1990s and before, and I 
particularly want to single out for praise the former chairman 
of this committee and the Judiciary Committee, Vice President 
Biden, for his steadfast effort that ultimately resulted in the 
passage of a domestic Violence Against Women Act in 1994. That 
act marked a fundamental turning point in our own government's 
seriousness about addressing violence against women and girls. 
And the fact is that women and girls all over this country are 
safer as a result.
    I remember learning about this issue firsthand, actually, 
back when I was the first assistant district attorney in 
Middlesex County, and we started one of the first rape 
counseling units in the entire country. And the person we put 
in charge of it went on to become a national expert and helped 
to bring this to other parts of the country. It taught me a lot 
about how, if you, sort of, make a beginning at this and begin 
to educate people and bring them into a better understanding, a 
lot of things can change as a consequence.
    So what we need to do now is lead. And what we need to do 
now is make sure people understand these connections and 
connect the dots and begin to see the difference that we can 
all make. We need to offer some of the same protections that 
we've been able to achieve here, to women everywhere.
    That's why I plan to introduce the International Violence 
Against Women Act, a bill designed to put the machinery of our 
government to work on reducing global violence against women. 
To do that, the bill creates new positions inside both the 
State Department and USAID, gives them the staff that they need 
to impact policy, the budget to plan and meet priorities, and 
the stature to make sure that, where important decisions are 
being made, a champion for women's issues will be in the room. 
We must confront the imbalances in opportunity and status 
between men and women.
    The Nobel Prize-winning economist Amartya Sen estimated, 
back in 1990, that more than 100 million women were missing 
from the planet due to sex-selective abortions and female 
infanticide. This included more than 40 million in China and 35 
million in India. Distorted gender balances fuel trafficking, 
abductions, forced marriages, and disaffection among young men 
who can't get married and raise families. By contrast, 
countries that value and empower women and girls are more 
economically successful and peaceful. And it turns out that 
championing these values is also an extremely effective and 
cost-efficient way to advance America's foreign-assistance 
goals, including alleviating poverty, improving health care, 
educating children, and developing economies.
    So I look forward today to hearing from our two sets of 
distinguished panelists on the current status of women 
internationally, as well as the President's efforts to link 
women's security into our overall foreign policy. I'm 
especially interested in hearing what more needs to be done to 
integrate women's empowerment into our large-scale assistance 
programs and to ensure that we give women a voice in so many 
countries, where today they are silenced.
    Before I introduce our first panel, let me submit, for the 
record, statements by my colleagues, Senator Lugar, Senator 
Feingold, and Senator Dodd, all of whom wanted to be officially 
part of the record today, but who couldn't be here, and Senator 
Durbin, who has been a strong voice on these issues, as well.
    For our first panel today, we welcome Melanne Verveer, the 
State Department's Ambassador at Large for Global Women's 
Issues. Ambassador Verveer is one of this country's foremost 
advocates on behalf of women, and she led the establishment of 
the President's Interagency Council on Women during the Clinton 
administration, so she understands the challenges of increasing 
the stature of global women's issues within the U.S. Government 
itself.
    We also welcome Stephen Rapp, Ambassador at Large for War 
Crimes Issues. Ambassador Rapp has firsthand knowledge and 
expertise on accountability and impunity for sexual violence 
against women from his experience as prosecutor of the Special 
Court for Sierra Leone. And, obviously, all of us remember the 
terrible stories that came out of--well, that still come out--I 
mean, whether it's the Congo or Sudan or Darfur or Bosnia-
Herzegovina during the Balkan struggle, we've heard too many 
stories of rape as an instrument of war, as a weapon, and so 
forth. So during his tenure in this effort, Stephen Rapp has a 
particular understanding of these issues, and his office 
achieved the first convictions in history for sexual slavery 
and forced marriage as crimes against humanity. So with that 
expertise we welcome his insights into how we can strengthen 
our efforts, and the world's efforts, to create real 
accountability for crimes against women.
    So thank you both for being here today. And I thank my 
colleagues for joining us here.
    We will begin--Madam Secretary, thank you very much for-- 
Ambassador--being here.

  STATEMENT OF HON. MELANNE VERVEER, AMBASSADOR AT LARGE FOR 
   GLOBAL WOMEN'S ISSUES, DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Verveer. Thank you, Chairman Kerry, and thank 
you for holding these groundbreaking--this groundbreaking--
hearing in full committee to address one of the most serious 
global challenges of our time.
    The Chairman. Let me just interrupt you for 1 second.
    I do want to mention that Senator Boxer came to me, earlier 
in the year, and I want to congratulate her and thank her 
because she particularly wanted the committee to think about 
this, and I was pleased to respond to her, and we created, 
within her subcommittee, a separate component of her 
subcommitteeship that actually legitimately focuses and 
institutionalizes this issue within the committee, if you will.
    Thank you.
    Ambassador Verveer. Thank you for that, because it also--
the hearing that Senators Boxer and Feingold had on rape as a 
tool of war in DRC and Sudan applies to these hearings, as 
well, in a very significant way.
    Senators, the momentum is building for us to be able to 
make a clear and concrete difference in the lives of women and 
girls who are affected by gender-based violence, or who are at 
risk of violence. We have before us a new opportunity to 
intensify our efforts and to make effective progress against 
this global pandemic.
    Violence against women cannot be relegated to the margins 
of foreign policy. It cannot be treated solely as a ``women's 
issue,'' as something that can wait until ``more pressing'' 
issues are solved. The scale and the scope of this problem make 
it simultaneously one of the largest and most entrenched 
humanitarian and development challenges before us.
    It is also, as you said, also a security issue. When women 
are attacked as part of a deliberate and coordinated strategy, 
as they are in Sudan, the DRC, Burma, and as they have been 
elsewhere around the world, the glue that holds together 
communities dissolves. Large populations become not only 
displaced, but destabilized. Around the world, the places that 
are most dangerous for women also pose the greatest threats to 
international peace and security. The correlation is clear: 
Where women are oppressed, governance is weak and extremism is 
more likely to take hold. As Secretary Clinton has said, you 
cannot have vibrant civil societies if half the population is 
left behind. Women's participation is a prerequisite for good 
governance, for rule of law, for economic prosperity--and 
gender-based violence and the ever-present threat of violence 
prevents women's participation in these sectors of society.
    The violence against women and girls that we are currently 
seeing is a global pandemic and a humanitarian crisis of 
enormous proportions. It affects girls and women at every point 
in their lives, from sex-selective abortion, which has culled 
as many as 100 million girls, to withholding adequate nutrition 
to girls, to FGM, child marriage, rape as a weapon of war, 
human trafficking, so-called ``honor killings,'' dowry-related 
murders, and so much more. This violence cannot be explained 
away as cultural; it is criminal. It is every nation's problem, 
and it is the cause of mass destruction around the globe. We 
need a response that is commensurate with the seriousness of 
the crimes. Violence against women not only destroys the lives 
of individual girls and women, families, and communities, but 
it robs the world of the talent it urgently needs. There is a 
powerful connection between violence against women and the 
unending cycle of women in poverty. Women who are abused or who 
fear violence are unable to realize their full potential and 
contribute to their countries' development. There are enormous 
economic costs that come with violence against women. In the 
United States alone, an estimated loss of $1.8 billion in 
productivity and earnings is associated with gender-based 
violence on an annual basis. These types of losses are repeated 
around the world. Ending violence against women is a 
prerequisite for their social, economic, political 
participation and progress.
    Preventing violence against women isn't just the right 
thing to do; it's also the smart thing to do. Multiple studies 
from economists, corporations, institutes, and foundations have 
demonstrated again and again that women are drivers of economic 
growth, and that investing in women yields enormous dividends. 
We know from these studies that women reinvest up to 90 percent 
of their incomes in their families and communities. And yet 
none of these benefits is possible if women are not free from 
violence.
    The global and entrenched nature of gender-based violence 
presents enormous challenges, and yet we know that progress is 
possible. In the 4 months since the hearing on gender-based 
violence in the DRC and Sudan that was chaired by Senators 
Boxer and Feingold, we've been making a concerted effort toward 
addressing some of the most urgent aspects of the crisis in the 
DRC. In August, Secretary Clinton traveled to Goma, and there 
she met with the NGOs and service providers who were doing 
Herculean work. She met with MONUC, she went to the camps, she 
announced $17 million in funding to assist survivors of sexual 
and gender-based violence in the eastern provinces of DRC.
    The money includes training for the very things that we 
have been requesting from having providers on the ground, for 
health care workers and complex fistula repair, for the 
provision of medical care, counseling, economic assistance, and 
legal support for women living in the Kivus and other areas. 
The U.S. Government is dedicating an additional $3 million to 
recruiting additional police officers, particularly women, and 
to training them to recognize the protection needs of women and 
girls and to investigate sexual violence.
    Since the Secretary's trip, we have sent assessment teams 
from USAID, from AFRICOM, and from the State Department's 
technology office.
    During her visit, she raised a number of very serious 
issues with the DRC President and others in the leadership of 
the country, ranging from conflict minerals to the need for 
accountability, and she demanded the top military commanders 
who've been implicated in rape be charged and prosecuted. And 
she underscored the critical need to address impunity.
    In June, I traveled to Afghanistan to reiterate our support 
and commitment to women's rights there. Peace, stability, and a 
better life for the Afghan people cannot and will not occur 
without the active involvement of women. And during this trip, 
Ambassador Eikenberry and I announced the start of an 
Ambassadors Small Grants Program to support women there. The 3-
year, $26.3 million program will provide much-needed technical 
assistance and small grants to women-focused NGOs.
    We have also been pleased to see the adoption of the 
Elimination of Violence Against Women law, by decree, in 
Afghanistan. We hope that this will not just be a gesture--a 
hollow gesture; we hope it will be implemented and vigorously 
enforced. Violence against women there continues to be a very 
serious problem, one that we've repeatedly raised with the 
government, and we are supporting programs, ranging from 
women's policing to shelters to judges' training.
    We've carried this kind of regional momentum forward at 
this year's United Nations meetings, working within the 
Security Council to generate more international political will 
to address violence against women.
    And, just yesterday, as you mentioned, Senator, Secretary 
Clinton spoke on behalf of U.N. Security Council Resolution 
1888, which was sponsored by the United States and focuses on a 
more effective response to sexual violence in armed conflict, 
and which the council unanimously adopted. And, I must say, it 
was a recommendation that also came out of the subcommittee 
hearings, when we had them, several months ago. The resolution 
requests, among other provisions, that the Secretary General 
appoint a special representative to lead, coordinate, and 
advocate for efforts to end sexual violence in armed conflict, 
and also requests the Secretary General to identify and deploy 
teams of experts to conflict situations where sexual violence 
is likely to occur in order to help governments strengthen the 
rule of law, improve accountability, and end impunity.
    Taken together, these bilateral and multilateral efforts 
represent some encouraging progress since May. However, they 
are only--and I stress ``only''--a beginning of what needs to 
be done.
    In my written testimony, I describe a number of components 
that must be present as we develop a comprehensive global 
strategy to prevent and combat violence against women. We need 
to understand that violence is not only a very serious women's 
issue, but one of international human rights and national 
security. We must ensure that men are active participants in 
the effort to help us combat violence. And we must ensure that 
girls have access to the same education as boys, and that they 
are safe as they travel to and from school while they learn. 
Education is the only tool we have that can reliably change 
entrenched attitudes. Mukhtar Mai had been brutally gang-raped 
in Pakistan, in a horrific case that garnered headlines around 
the world. She was expected to kill herself for the shame that 
was brought on her and her family by virtue of what happened to 
her. Instead, she mustered the courage to take her case to 
court. And she used the small settlement to build two schools, 
one for boys and one for girls. And she enrolled herself in the 
school for girls, because she, herself, was illiterate. She 
said she did that because nothing would ever change in her 
village unless there was education. It is fundamental.
    We need to draw our lessons from those before us who have 
tried to put an end to violence. From them, we know what hasn't 
worked, and we know what does. We must put our focus on 
prevention, on the protection of the victims, and on the 
prosecution of those who perpetrate these awful crimes. It is 
time that violence against women became a concern for all of 
us.
    Thank you.
    [The prepared statement of Ambassador Verveer follows:]

Prepared Statement of Hon. Melanne Verveer, Ambassador at Large, Office 
     of Global Women's Issues, Department of State, Washington, DC

    I am honored to appear before you this afternoon, in this 
groundbreaking hearing in full committee, to address one of the most 
serious global challenges of our time: violence against women. Thank 
you, Chairman Kerry, Ranking Member Lugar, and distinguished members of 
the committee for taking the time to address this important issue and 
for holding this hearing that builds on the May 13 subcommittee 
hearing, chaired by Senators Boxer and Feingold, on rape as a weapon of 
the conflict in the DRC and Sudan. The momentum is building for us to 
be able to make a clear and concrete difference in the lives of women 
and girls who are affected by gender-based violence or who are at risk 
of violence. The President, Vice President, and Secretary of State are 
committed to incorporating women's issues into all aspects of our 
foreign policy. Just yesterday, Secretary Clinton spoke about this 
topic in the U.N. Security Council, where a U.S.-sponsored resolution 
that will more effectively address sexual violence against women in 
armed conflicts was adopted by unanimous consent. The unprecedented 
creation of the ``Ambassador at Large'' position to head the State 
Department's Office of Global Women's Issues demonstrates the 
administration's deep commitment to women's issues, and preventing and 
combating violence against women is a top priority for my office. We 
have before us a new opportunity to intensify our efforts and to make 
effective progress against this global pandemic.
    Violence against women cannot be relegated to the margins of 
foreign policy. It cannot be treated solely as a ``women's issue,'' as 
something that can wait until ``more pressing'' issues are solved. The 
scale and the scope of the problem make it simultaneously one of the 
largest and most entrenched humanitarian and development issues before 
us; they also make it a security issue. When women are attacked as part 
of a deliberate and coordinated strategy, as they are in Sudan, the 
DRC, and Burma, and as they have been in Bosnia, Sri Lanka, and 
elsewhere around the world, the glue that holds together communities 
dissolves. Large populations become not only displaced, but 
destabilized. Around the world, the places that are the most dangerous 
for women also pose the greatest threats to international peace and 
security. The correlation is clear: where women are oppressed, 
governance is weak and terrorists are more likely to take hold. As the 
Secretary has said, you cannot have vibrant civil societies if half the 
population is left behind. Women's participation is a prerequisite for 
good governance, for rule of law, and for economic prosperity--and 
gender-based violence and the ever-present threat of violence prevents 
women's participation in these sectors of society.
    The violence against women and girls that we're currently seeing is 
a global pandemic. It cuts across ethnicity, race, class, religion, 
education level, and international borders. It affects girls and women 
at every point in their life, from sex-selective abortion, which has 
culled as many as 100 million girls, to inadequate health care and 
nutrition given to girls, to genital mutilation, child marriage, rape 
as a weapon of war, trafficking, so-called ``honor'' killings, dowry-
related murder, and the neglect and ostracism of widows--and this is 
not an exhaustive list. This violence is not ``cultural''; it is 
criminal. It is every nation's problem and it is the cause of mass 
destruction around the globe. We need a response that is commensurate 
with the seriousness of these crimes.
    The statistics that tell the extent of this humanitarian tragedy 
are well-known. One in three women worldwide will experience gender-
based violence in her lifetime, and in some countries, this is true for 
70 percent of women. A 2006 United Nations report found that at least 
102 Member States had no specific laws on domestic violence; others 
that do have laws too often fail to fully implement or enforce them. 
The United Nations estimates that at least 5,000 so-called ``honor'' 
killings take place each year around the world and 2 to 3 million girls 
and women each year are subjected to genital mutilation. Working from 
normative projections of sex ratios, we know that there are millions--
some estimate as many as 100 million--girls who are missing from the 
world because of sex-selective abortion, infanticide, or because 
they're denied the nutrition and health care they need to survive past 
the age of 5. In some parts of the world, girls are subject to having 
acid thrown in their faces when they try to go to school or when they 
reject suitors. Millions of girls and women are bought and sold as 
commodities and trafficked into prostitution or purchased as indentured 
servants or sweatshop workers. The International Labor Organization 
(ILO) estimates that there are at least 12.3 million adults and 
children in forced labor and commercial sexual servitude, and the 
majority of forced labor victims are women and girls. Around the world, 
they are the worst-affected by HIV/AIDS, with rape and the fear of 
relationship violence adding fuel to women's rising infection rate.
    The problem of violence against women and girls is particularly 
acute in conflict zones, where legal and social norms fall away and 
armies and militias act without fear of accountability or judicial 
penalty. This is especially apparent in places such as the Democratic 
Republic of the Congo, where, by some estimates, more than 5 million 
people have died since 1998 because of the ongoing conflict. Women and 
girls have been particularly brutalized, as rapes are perpetrated by 
security forces and rebel groups and have become pervasive throughout 
society. Some 1,100 rapes are reported each month in the DRC's eastern 
provinces, with an average of 36 women and girls raped every day. In 
Burma, which has longstanding internal conflicts with ethnic 
minorities, women and girls are subject to sexual violence and other 
forms of assault, including rape by members of the armed forces that 
targets rural ethnic minority women. The displaced women in Sudan's 
Darfur region risk rape when they leave camps to collect firewood--rape 
by some of the same perpetrators that caused their displacement and by 
other militia and bandits. In refugee camps in eastern Chad and in 
Kenya, women risk attack by local people protecting their resources as 
well as by armed groups. Rape is used in conflict situations as a 
purposeful strategy to subdue and destroy communities, and an 
atmosphere of impunity prevails.
    Children in these war-torn areas are especially vulnerable. While 
boys may be pressed into service as child soldiers and trained to kill, 
girls are often raped and may be forced to become sex slaves. The 
Lord's Resistance Army (LRA), a Ugandan rebel group, operates in the 
DRC and Central African Republic and is among the perpetrators of these 
vicious acts. As the Secretary said before in her opening remarks to 
the U.N. Security Council on September 30, ``Even though women and 
children are rarely responsible for initiating armed conflict, they are 
often war's most vulnerable and violated victims.''
    Behind all these statistics are stories of actual people: girls 
such as Nhkum Hkawn Din, a 15-year-old student in Burma who was 
allegedly raped and murdered by one or more Burmese soldiers last year. 
According to Burmese news reports, she was bringing food to her brother 
in the paddy field where he worked when the soldiers saw her and 
started following her. Three days later, her clothes and shoes were 
found alongside the basket she had been carrying. Her body, naked and 
mutilated, was found 200 meters away from a Burmese Army checkpoint.
    Or the story of 13-year-old Shan girl, Nang Ung, who was detained 
by Burmese troops on false charges of being a rebel. According to a 
2004 report by the Women's League of Burma (WLB), she was tied up in a 
tent and raped for 10 days by five to six troops each day. The injuries 
she sustained from the repeated rapes were so severe that she never 
recovered. She died a few weeks after she was freed.
    Or story after story of the rape of women and girls in the eastern 
part of the Democratic Republic of the Congo. In August, I traveled 
with Secretary Clinton to Goma. The residents of the camp we visited 
talked about how difficult their lives were each and every day, because 
the camp provides no real security. If you venture out, as too many of 
the girls told us, for water or firewood, you put your life at risk.
    In a Goma hospital, we met a woman who told us that she was 8 
months' pregnant when she was attacked. She was at home when a group of 
men broke in. They took her husband and two of their children and shot 
them in the front yard, before returning into the house to shoot her 
other two children. Then they beat and gang-raped her and left her for 
dead. But she was not dead. She fought for her life and her neighbors 
managed to get her to the hospital which was 85 kilometers away.
    In so many of these cases, especially when security forces 
themselves are involved, no serious legal action is taken against these 
criminals.
    These stories represent a humanitarian tragedy. The abuses not only 
destroy the lives of individual girls and women, families, and 
communities, but also rob the world of the talent it urgently needs. 
There is a powerful connection between violence against women and the 
unending cycle of women in poverty. Women who are abused or who fear 
violence are unable to realize their full potential and contribute to 
their countries' development. There are enormous economic costs that 
come with violence against women. In the United States alone, an 
estimated loss of $1.8 billion in productivity and earnings is 
associated with gender based-violence on an annual basis. These types 
of losses are repeated around the world. Ending violence against women 
is a prerequisite for their social, economic, and political 
participation and progress. Girls in Afghanistan cannot get an equal 
education if they are subject to acid attacks and their schools are 
burned down. Women can't succeed in the workplace if they are abused 
and traumatized, nor can they advance if legal systems continue to 
treat them as less than full citizens. And female politicians can't 
compete for office on an equal playing field when they receive 
threatening ``night letters'' or fear for their families' safety. 
Beyond the tragedy of actual violence, countless other women constrain 
their lives and withdraw from civil society because of the even larger 
problem of the ever-present threat of violence. In this way, even 
beyond the victims, violence controls women's lives.
    Preventing violence against women isn't just the right thing to do; 
it's also the smart thing to do. Multiple studies from economists, 
corporations, institutes and foundations have demonstrated again and 
again that women are key drivers of economic growth and that investing 
in women yields enormous dividends. We know from these studies that 
women reinvest up to 90 percent of their income in their families and 
communities. And yet none of these benefits are possible unless girls 
are able to learn without fear and women are able to have autonomy and 
decisionmaking over their own lives, and those are the very things that 
violence and the fear of violence take away.
    The global and entrenched nature of gender-based violence presents 
enormous challenges. And yet, we know that progress is possible. In the 
4 months since Senators Boxer and Feingold chaired a hearing on gender-
based violence in the DRC and Sudan, we've been able to take 
substantial steps toward addressing some of the most urgent crises. In 
August, the Secretary announced $17 million in funding to assist 
survivors of Sexual and Gender Based Violence in the Eastern provinces 
of the DRC. This assistance will be distributed to organizations across 
Eastern Congo, and will respond to the crisis in a comprehensive 
manner. It includes training for health care workers in complex fistula 
repair, the provision of medical care, counseling, economic assistance, 
and legal support to women living in North and South Kivu, and other 
areas. The USG is also dedicating an additional $3 million to 
recruiting additional police officers, particularly women, and to 
training them to recognize the protection needs of women and girls and 
to investigate sexual violence.
    In addition, the Secretary has raised the issue of impunity at the 
highest levels of the government, including during her meetings with 
President Kabila and Prime Minister Muzito. She pressed the DRC 
government to bring to justice five high-level officers of the DRC 
military who have either themselves been implicated in violent crimes 
against women or allowed soldiers within their commands to perpetrate 
them. All have now been removed from active operational command, and 
two are in prison, though complete accountability has not yet been 
achieved.
    We are also committed to international efforts to regularize the 
Congolese minerals trade. For too long, armed groups and the DRC 
military itself have controlled mining operations and illegally 
exported minerals for their own financial benefit rather than allowing 
those resources to benefit the Congolese state and its people. More 
critically, these mining operations have exacerbated the conflict by 
funding arms and thus further destabilizing the security environment 
that allows rapes to be committed unchecked. In some cases, those in 
control of the mines have also directly abused women through forced 
labor or prostitution.
    We have also taken a number of steps in Afghanistan over a short 
period of time. At the request of Secretary Clinton and Ambassador 
Holbrooke, I traveled to Afghanistan in June to underscore our support 
and commitment to women's rights. The trip provided an opportunity to 
deliver the message that the United States understands that progress in 
Afghanistan must be measured not just in military terms, but also in 
terms of social, political, and economic participation of women in 
rebuilding Afghanistan and in the safeguarding of their human rights. 
Peace, stability, and a better life for the Afghan people cannot and 
will not occur without the active involvement of women.
    During this trip, Ambassador Eikenberry and I announced the start 
of the Ambassador's small grants program to support gender equality in 
Afghanistan. The 3-year, $26.3 million program will provide technical 
assistance and small grants to women-focused Afghan NGOs in accordance 
with the National Action Plan for the Women of Afghanistan. The program 
will offer flexible, rapid response grants to NGOs that address the 
needs of Afghan women in the areas of education, health, skills 
training, counseling on family issues, and public advocacy. My office 
is working closely with our Embassy in Kabul and colleagues at USAID to 
ensure that our assistance is well coordinated, addresses the major 
issues confronted by women and girls, and is sustainable. We are also 
committed to ensuring that the $150 million allocated for Afghan women 
and girls in the FY 2009 budget addresses their specific needs at the 
grassroots level, and are working to ensure that the programs are 
implemented with specific outcomes to ensure the most impact.
    We've carried this kind of regional momentum forward at this year's 
United Nations meetings, where we worked within the Security Council to 
strengthen international political will to address violence against 
women and to enact U.N. Security Council Resolution 1888.
    When governments convened in 2000 to adopt Security Council 
Resolution 1325 on Women, Peace and Security, they recognized the 
critical need not only to protect women and girls from gender-based 
violence, but also the important role of women in the prevention and 
resolution of conflicts, including their equal and full participation 
in peace processes and post-conflict reconstruction. Resolution 1325 
provides an important foundation for addressing the empowerment and 
role of women in peace and security, including peacebuilding.
    In 2008, building upon the scope of Resolution 1325, the Security 
Council adopted Resolution 1820. This U.S.-drafted resolution 
established a clear link between maintaining international peace and 
security and preventing and responding to sexual violence used as a 
tactic of war. With the adoption of these two resolutions, the 
international community recognized that sexual violence is a strategic 
weapon of armed conflict and, as such, is an urgent matter of 
international peace and security. As a result, many U.N. peacekeeping 
mandates--in Chad, the Democratic Republic of Congo, and Sudan, for 
example--now include requests for strengthened efforts to prevent and 
respond to sexual violence. However, despite these accomplishments, 
significant challenges remain. Women are seldom part of peace 
negotiations and peacebuilding efforts, including post-conflict 
transitional governments, truth and reconciliation commissions, 
transitional justice mechanisms and human rights commissions.
    This year, the Security Council has taken additional steps to 
improve the U.N.'s response to sexual violence committed during armed 
conflict. Yesterday, Secretary Clinton spoke on behalf of a U.S.-
sponsored resolution focused on sexual violence in armed conflict, 
which the Council unanimously adopted. The resolution requests, among 
other provisions, that the Secretary General appoint a Special 
Representative to lead, coordinate, and advocate for efforts to end 
sexual violence in armed conflict. The resolution also requests that 
the Secretary General identify and deploy a team of experts to conflict 
situations where sexual violence is likely to occur, in order to help 
governments strengthen the rule of law, improve accountability, and end 
impunity. The resolution seeks to ensure that future resolutions that 
establish or renew peacekeeping mandates contain provisions on the 
prevention of, and response to, sexual violence, and contain reporting 
requirements to the Security Council.
    Taken together, these bilateral and multilateral efforts represent 
significant and encouraging progress since May. However, they are only 
a beginning.
    As we look ahead toward a comprehensive international campaign to 
end violence against women, we must ensure that all of the following 
are a part of our strategies:
    (1) First and foremost, we must define this violence not as a 
women's issue but as one of international human rights and national 
security. This means that our efforts to prevent and combat violence 
must go beyond current campaigns aimed primarily at women. Our efforts 
must recognize that men and women at all levels of society and of all 
ages have roles to play. Crucially, it also means that our strategies 
cannot exist purely at the grassroots level. Policymakers and 
decisionmakers must recognize and take up this issue not only as one 
that touches on their interests, but as one that is at the heart of 
their interests and for which they have responsibility.
    (2) Involvement by international religious leaders of all faiths is 
critical. In Afghanistan, the United States is supporting a project 
through local partners working with 844 religious leaders, government 
officials, media representatives, and civil society members and 
training them in concepts of human rights within the context of Islam. 
One local Mullah who attended the first training had initially declared 
his belief that human rights were a Western ideal, going against the 
teachings of Islam. After participating in the training, he declared 
that his views had changed. Since the event, he has often spoken about 
rights-based issues during Friday prayers. He has a regular 1-hour 
program on Sharq Television, and has spoken on air about the rights of 
women, children, and families.
    (3) Men can and must be a part of the effort to end violence 
against women.
    In India,the Father and Daughter Alliance is establishing fathers' 
associations in slum areas to promote young girls' education through 
the critical concept of close involvement of the fathers.
    In the United States, we've had groups such as the ``Man Up 
Campaign,'' which reaches out to young men to educate and create a 
discussion about gender-based violence through the use of hip-hop music 
and sports. On November 25, the International Day for the Elimination 
of Violence Against Women, Man Up will enlist young people at the World 
Cup in South Africa to commit to being long-term partners of the 
initiative. A similar U.S.-based organization, ``Men Can Stop Rape,'' 
has worked for a dozen years with boys and young men to change 
attitudes about gender roles. This group's well-known publicity 
campaign ``My Strength Is Not For Hurting'' has featured actors, 
athletes and U.S. military personnel (in uniform) to send the explicit 
message that a soldier's role is to protect fellow citizens, not abuse 
them. The success of these efforts can be replicated elsewhere.
    (4) Continuing to work toward women's economic empowerment is 
essential. Beyond the development gains that accrue to countries in 
which women are active economic participants, women who control their 
own resources are better-positioned to escape situations of violence. 
Achieving this goal means identifying and working to remove 
institutional obstacles to women's economic success, including 
inequitable land tenure laws and customs as well as those that 
constrain equal property rights and inheritance.
    (5) Access to high-quality education is fundamentally important, 
for both girls and boys. We must ensure that girls not only have access 
to the same education as boys, but that they are safe as they travel to 
and from school and while they learn.
    Education is the only tool we have available that can reliably 
change entrenched attitudes. When Mukhtar Mai was gang-raped in 
Pakistan in 2002, on the orders of the tribal council in her rural 
Pakistani village, her village expected her to commit suicide. But 
Mukhtar Mai was not an ordinary victim. Instead, this illiterate, 
brutalized, and shunned woman found the strength to take her case to 
court. She used the money from her small settlement to build two 
schools--one for boys and one for girls, in which she enrolled herself. 
She said nothing in her village would ever change without education.
    (6) In areas of conflict, the best outcome is a rapid end to 
strife. We must recognize the collateral damage inflicted on civilian 
women in regions of protracted conflict, and improve protection for 
women, prevention of further atrocities, and we must ensure the 
prosecution of perpetrators, be they soldiers or top commanders. The 
recent passage of U.S.-sponsored U.N. Security Resolution 1888 is 
progress, but we must ensure that the new resolution itself is 
effectively and expeditiously implemented.
    (7) We must recognize that violence against women flourishes where 
impunity is the norm. Regions in conflict are particularly vulnerable 
to judicial breakdown, but impunity can also reign long after conflicts 
are resolved. In countries such as Guatemala and elsewhere, women are 
targeted for murder and mutilation because of their sex, and the 
perpetrators are seldom brought to justice. We know that good laws 
alone won't ensure that women will be protected. We must work with 
governments around the world to focus on the implementation of laws and 
on judicial training in order to ensure an end to impunity.
    (8) Where programs are working well, we should take them to scale. 
Tostan, an NGO in Africa, has worked effectively to reduce the practice 
of FGM--a deeply ingrained practice--by working with both men and women 
at the village level to confront the harmful effects to the health and 
well-being of women. Since 1997, Tostan has helped convince 3,792 
communities in Senegal, 364 in Guinea, 23 in Burkina Faso, and some in 
other African countries, to abandon this devastating practice. The 
effective methods of Tostan are a lesson without borders and can and 
should be introduced elsewhere.
    (9) Finally, we need to understand that violence against women is a 
policy imperative that deserves to be our highest priority. We need to 
recognize that this problem of violence is, at root, a manifestation of 
the low status of women and girls around the world. Ending the violence 
requires elevating their status and freeing their potential to be 
agents of change in their community.
    The State Department's Office of Global Women's Issues is deeply 
committed to implementing these strategies and to building the kinds of 
partnerships that will allow us to leverage international progress 
toward our goals. We will address violence against women by promoting 
the rule of law, enhancing strong criminal and civil justice programs, 
encouraging implementation of laws, and building public awareness of 
the benefits of educating girls and providing them with economic 
opportunity and health care as well as changing societal attitudes.
    Violence against women is an issue that should concern us all. 
Women are the key to progress and prosperity in the 21st century. When 
they are marginalized and mistreated, humanity cannot progress. When 
they are accorded their rights and afforded equal opportunities in 
education, health care, employment, and political participation, they 
lift up their families, their communities, and their nations.

    The Chairman. Thank you very much, Madam Ambassador.
    Ambassador Rapp.

  STATEMENT OF HON. STEPHEN RAPP, AMBASSADOR AT LARGE FOR WAR 
       CRIMES ISSUES, DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Rapp. Mr. Chairman, distinguished members of the 
committee, I'm honored to appear here before you this 
afternoon.
    As you know, this is the first time I'm testifying before a 
congressional committee as Ambassador at Large for War Crimes 
Issues, and I'm particularly gratified to be doing so on a 
subject of central importance to this administration: the need 
for effective global action to combat violence against women 
and girls on a global level.
    My office is responsible for formulating U.S. policy 
responses to atrocities committed in areas of war and civil 
conflict throughout the world. One of my top priorities is 
ensuring that, when rape and other forms of violence are 
committed against women and girls in conflict-related 
situations, those who are responsible are held to account. By 
ensuring justice for these crimes, we believe we can have a 
broader impact on countries torn apart by conflict by 
reaffirming core values of what is right and what is wrong, in 
a context where these values have broken down.
    Prosecutions are also important for victims, recognizing 
their suffering and publicly holding the perpetrators 
accountable as criminals. My own work on these issues builds on 
more than 8 years of experience as an international prosecutor, 
pursuing justice in cases of mass atrocities. Prior to my 
service as Ambassador at Large, I served from 2001 through the 
end of 2006 at the International Criminal Tribunal for Rwanda, 
the ICTR, leading prosecution teams in the trials of 
individuals who were alleged to have been responsible for the 
genocide in Rwanda.
    These trials brought forth testimony from the survivors of 
one of the greatest crimes of the 20th century: the murder of 
an estimated 800,000 human beings in only 100 days in 1994. 
And, as the evidence developed, it became clear that these 
murders were accompanied by premeditated massive sexual 
violence against women and girls. As the pregenocide campaign 
of propaganda had denigrated Tutsi women, as a means to 
marginalize the ethnic group, the rape of Tutsi women became a 
means to destroy the Tutsi people.
    In its first case, the ICTR convicted Taba Commune Mayor 
Jean-Paul Akayesu of rape as a crime against humanity. But, of 
even greater significance, it held that when other elements of 
the crime are present, rape itself can be an act of genocide.
    During my tenure, we worked to meet the challenge of 
prosecuting higher level leaders for this widespread sexual 
violence. I'm proud that one of the cases that I investigated 
recently resulted in a conviction at the ICTR of a high-level 
leader, both for rape as a crime against humanity and rape as a 
war crime. That's the case of Tharcisse Renzaho, the former 
prefect of Kigali-ville, essentially the most powerful Governor 
in Rwanda in 1994. These convictions were based on his 
knowledge of sexual violence by those under his control, and 
his failure to act to prevent or punish their conduct.
    In December 2006, I was appointed chief prosecutor of the 
Special Court for Sierra Leone. The Special Court was set up 
jointly by the Government of Sierra Leone and the United 
Nations to try those bearing the greatest responsibility for 
the atrocities committed between 1996 and 2002, during a period 
of civil war in that country. Civilians, not soldiers, were the 
prime targets during the conflict in Sierra Leone. Thousands 
were mutilated, most commonly with amputations of hands and 
arms. Tens of thousands were murdered. And hundreds of 
thousands of women and girls were sexually violated. These 
rapes were sometimes accompanied by murders, mutilations, or 
other acts of violence. But they overwhelmed all other crimes 
in their sheer magnitude. The widespread and systematic nature 
of rape showed that the sexual violence was not isolated 
conduct by out-of-control combatants, but, instead, the 
dominant tactic for terrorizing, punishing, and gaining power 
over the population. At the Special Court for Sierra Leone, the 
Office of the Prosecutor placed the highest priority on 
investigating and charging crimes of sexual violence and in 
developing the international humanitarian law that defines 
these defenses.
    In February 2009, we won the first convictions in history 
for sexual slavery and forced marriage as crimes against 
humanity, as you indicated, Mr. Chairman. This latter crime had 
never been recognized before we included it in our indictment 
as an inhumane act of equal gravity to recognized crimes 
against humanity. We also achieved the first convictions 
against leaders of armed groups for crimes of sexual violence 
committed by persons acting with them as part of a common 
scheme or plan. With our successful convictions, we sent a 
signal that those who use sexual violence as a strategy of 
conflict risk prosecution and punishment. But the seriousness 
of that risk depends upon the strength of the justice system 
that has jurisdiction over these crimes.
    And despite some gains, sexual violence committed in 
conflict zones is rarely prosecuted locally. The United Nations 
estimates approximately 40 women are raped each day, as we 
speak, just in the Democratic Republic of Congo's small eastern 
province of South Kivu, often by members of the military. 
However, in spite of these alarming numbers, Human Rights Watch 
has reported that, in 2008, only 27 soldiers were convicted for 
crimes of rape and sexual violence.
    Of course, another message of this number is that it is 
possible to accomplish justice for sexual violence, even in a 
zone of ongoing conflict. And we must look first to national 
systems to try those responsible. The local level is the 
preferred approach because it is justice by and among those 
most affected by the violence. In situations where states may 
need additional support or capacity to provide justice, we need 
to work with these governments and other members of the 
international community to find and fund ways to enhance or 
build the state's domestic capacity to ensure justice. Still, 
there may be situations, as Secretary Clinton said yesterday in 
her speech before the U.N. Security Council, where more 
internationalized mechanism is needed, as well.
    Moving forward, the United States should aim to be 
proactive in preventing violence against women and girls 
perpetrated in these conflict zones before it happens. Under 
the ADVANCE Democracy Act of 2007, the Ambassador at Large for 
War Crimes Issues, among others, now assists the President in 
collecting information regarding ongoing incidents that may 
violate international humanitarian law. And I'm deeply 
committed to upholding my responsibility in this area so that 
the United States can recognize and report early warning signs, 
as you mentioned in Guinea, which is a significant component to 
preventing widespread atrocities against women and girls before 
the violence reaches epidemic levels.
    My colleague, Ambassador Verveer, spoke of Secretary 
Clinton's remarks yesterday at the Security Council and of the 
successful passage, unanimously, of Security Council Resolution 
1888. It called attention to the horrific acts of rape and 
other forms of sexual violence perpetrated against women and 
girls in situations of armed conflict, strengthening the United 
Nation's ability to respond to this violence. And I would 
single out, in particular, the fact that the establishment of 
these teams of experts, upon which we look to participate and 
look upon our allies to participate, so that we can work to 
develop a strategy for restoring the rule of law, improving the 
judicial systems, ensuring fair trial standards, security, and 
witness protections, and monitor the implementation of 
Resolution 1888 and the earlier resolutions, 1325 and 1820, to 
work with governments to help them take measures to end sexual 
violence and conflict and improve accountability.
    My colleague, Ambassador Verveer, and I look forward to 
utilizing our offices to raise awareness of violence against 
women and girls and to restore the rule of law and 
accountability in conflict zones.
    Mr. Chairman, members of the committee, once again I want 
to thank you for this opportunity to appear before you today 
and for your continued leadership on these difficult and 
important issues. And pleased, of course, to answer any of your 
questions.
    Thank you.
    [The prepared statement of Ambassador Rapp follows:]

Prepared Statement of Hon. Stephen J. Rapp, Ambassador at Large, Office 
       of War Crimes Issues, Department of State, Washington, DC

    Chairman Kerry, Ranking Member Lugar, and distinguished members of 
the committee, I am honored to appear before you this afternoon. As you 
know, this is the first time I am testifying before a congressional 
committee as Ambassador at Large for War Crimes Issues, and I am 
particularly gratified to do so on a subject that is of central 
importance to this administration--the need for effective action to 
combat violence against women and girls on a global level.
    As Ambassador at Large for War Crimes Issues, I am responsible for 
formulating U.S. policy responses to atrocities committed in areas of 
war and civil conflict throughout the world. One of my top priorities 
is ensuring that when rape and other forms of violence are committed 
against women and girls in conflict-related situations, those who are 
responsible for perpetrating these heinous acts are held accountable.
    By ensuring justice for these crimes, we believe we can have a 
broader impact on countries torn apart by conflict by reaffirming core 
values of what is ``right'' and what is ``wrong'' in a context where 
these values have broken down. Prosecutions are also important for 
victims, recognizing their suffering and publicly holding the 
perpetrators accountable as criminals. While trials alone cannot end 
widespread violence, they can play an important part in reestablishing 
the rule of law in an environment of insecurity and impunity. As part 
of a comprehensive strategy, prosecuting those who commit acts of 
violence against women and girls in conflict-related situations can 
help restore the stability that is necessary for individuals, families, 
communities, and nations to develop and prosper.
    My own work on these issues builds upon more than 8 years of 
experience as an international prosecutor pursuing justice in cases of 
mass atrocities. Prior to my service as Ambassador at Large, I served 
from 2001 through 2006 at the International Criminal Tribunal for 
Rwanda (ICTR) leading prosecution teams in the trials of individuals 
who were alleged to have been responsible for genocide in Rwanda. These 
trials brought forth testimony from survivors of one of the greatest 
crimes of the 20th century, the murder of an estimated 800,000 human 
beings in only 100 days in 1994. As the evidence developed, it became 
clear that these murders were accompanied by premeditated massive 
sexual violence against women and girls. As the pregenocide propaganda 
had denigrated Tutsi women as a means to marginalize the ethnic group, 
the rape of Tutsi women became a means to destroy the Tutsi population.
    Before my arrival to the ICTR, the court convicted Taba Commune 
Mayor Jean-Paul Akayesu of rape as a crime against humanity, and of 
even greater significance held that, when other elements of the crime 
are present, rape itself can be an act of genocide. But it soon became 
clear that ending impunity for such crimes would be a challenging task. 
The ICTR found Akayesu guilty of inciting men to commit rapes of women 
when those rapes were committed at Akayesu's own townhall. However, as 
the trials of other leaders continued, we discovered that it was very 
difficult to obtain a conviction for a leader who commanded or incited 
his followers to commit acts of sexual violence unless the leader 
either committed the crimes or witnessed them in his immediate 
presence. It took further investigations and recast indictments, but we 
were able to meet this challenge. I am proud that one of the cases I 
investigated and indicted was recently convicted by ICTR for rape as a 
war crime and a crime against humanity: Tharcisse Renzaho, the former 
prefect of Kigali-ville and essentially the most powerful governor in 
Rwanda in 1994. These convictions were based on his knowledge of sexual 
violence by those under his control and his failure to act to prevent 
or punish their conduct.
    In December 2006, I was appointed Chief Prosecutor of the Special 
Court for Sierra Leone. The Special Court for Sierra Leone was set up 
jointly by the Government of Sierra Leone and the United Nations in 
2002 to try those bearing the greatest responsibility for the 
atrocities committed between 1996 and 2002 during a period of civil war 
in that country.
    Civilians, not soldiers, were the prime targets during the conflict 
in Sierra Leone. Thousands were mutilated, most commonly with 
amputations of hands and arms, tens of thousands were murdered, and 
hundreds of thousands were sexually violated. The rapes were sometimes 
accompanied by murders, mutilations, or other acts of violence, but 
they overwhelmed all other crimes in their sheer magnitude. The 
widespread and systematic nature of rape showed that sexual violence 
was not isolated conduct by out-of-control combatants, but instead the 
dominant tactic for terrorizing, punishing, and gaining power over the 
population.
    The same pattern of violence targeting women and girls in Rwanda 
and Sierra Leone has also been seen during conflict in the former 
Yugoslavia, Liberia, Sudan, and the Democratic Republic of the Congo 
(DRC).
    All too often, rape has been used as an effective tool in breaking 
down societal ties, impacting entire communities for generations. 
Unfortunately, all too often victims of sexual violence are stigmatized 
and shunned by their own husbands, fathers and brothers. Many rape 
survivors are exiled from their own homes, tearing apart the ties that 
bind families and communities.
    Of course, beyond the initial attack, there are also long-term 
psychological, physical, and economic consequences to the individual 
and the community. Given the high prevalence of HIV/AIDS and other 
sexually transmitted diseases, there is an increased risk of death and 
debilitation for women and girls long after the attack. Women often 
provide the backbone of a community--raising the children, tending the 
hearth, tilling the fields. When women are in peril, the entire 
community suffers.
    At the Special Court for Sierra Leone, the Office of the Prosecutor 
placed the highest priority on investigating and charging crimes of 
sexual violence and in developing the international humanitarian law 
that defines these offenses. In February 2009, we won the first 
convictions in history for sexual slavery and forced marriage as crimes 
against humanity. This latter crime had never been recognized before we 
included it in our indictment as an ``inhuman act'' of equal gravity to 
recognized crimes against humanity. We also achieved the first 
convictions against leaders of an armed group for crimes of sexual 
violence by persons acting with them as part of a common scheme or 
plan. These convictions recognized that the victimization of women and 
girls can be a horrific part of a leadership's overall military 
strategy to terrorize a population. With our successful convictions, we 
sent a signal that those who use sexual violence as a strategy of 
conflict risk prosecution and imprisonment.
    We have seen the results that ending impunity can have in healing a 
broken society and building gender equality. Rwanda, a country plagued 
by widespread and systematic gender-based violence only 15 years ago, 
is now the first country where female legislators outnumber male 
legislators in Parliament.
    Despite some gains, sexual violence committed in conflict zones is 
rarely prosecuted locally. The United Nations estimates approximately 
40 women are raped each day just in the DRC's eastern province of South 
Kivu, where members of the DRC military, Congelese militia groups, and 
the Democratic Forces for the Liberation of Rwanda (FDLR) have raped 
and victimized local women and girls with absolute impunity. However, 
in spite of these alarming numbers, Human Rights Watch has reported 
that in 2008 only 27 soldiers were convicted for crimes of rape and 
sexual violence.
    Silence is acceptance and as Secretary Clinton has stated, the 
United States ``will not tolerate this continuation of wanton, 
senseless, brutal violence perpetrated against girls and women.'' We 
are committed to ending impunity for the perpetrators of such horrific 
acts and ensuring that those who commit sexual and gender based 
violence crimes in conflict-related situations are prosecuted.
    In my new position, I will build upon the work the Office of War 
Crimes has accomplished in supporting and engaging multiple 
international tribunals and governments around the world. I will 
continue to fight for accountability and justice for those employing 
these brutal strategies against women and girls.
    In pursuing accountability, we will first look to the states 
themselves to try those responsible and to end the impunity gap. This 
is the preferred approach: justice by and among those most affected by 
violence. In situations where states may need additional support or 
capacity to provide justice, we will work together with those 
governments and other members of the international community to examine 
ways to enhance or build a state's domestic capacity to ensure justice. 
Still, there may be situations where a more internationalized mechanism 
is needed as well. I will continually examine the range of 
accountability options, always seeking proceedings where due process 
and fairness will be guaranteed but that are also as accessible as 
possible to the victims and affected communities.
    An integral aspect of accountability is ensuring that women and 
girls who have been victimized by these crimes are respected and 
protected by the justice system. Victims or witnesses of these crimes 
may be intimidated by direct or perceived threats of violence or by 
fear of stigmatization from reporting these crimes or testifying 
against the perpetrators in a public setting. We need to work with 
local governments and NGOs to provide protection and services that 
combat physical, social, and psychological barriers to justice.
    Moving forward, the United States should aim to be proactive in 
preventing violence against women and girls perpetrated in conflict 
zones. Under the ADVANCE Democracy Act of 2007, the Ambassador at Large 
for War Crimes Issues, among others, now assists the President in 
collecting information regarding incidents that may violate 
international humanitarian law. I am deeply committed to upholding my 
responsibility in this area so that the United States can recognize and 
report early warning signs, which is a key component in preventing 
widespread atrocities against women and girls before the violence 
reaches epidemic levels.
    Secretary Clinton has demonstrated her deep commitment to these 
concerns as well. On September 30, the Secretary addressed the United 
Nations Security Council urging the support of a U.S.-introduced 
Security Council resolution on sexual violence in conflict. The 
proposed resolution seeks to implement Security Council Resolution 1820 
(2008), which calls attention to the horrific acts of rape and other 
forms of sexual violence perpetrated against women and girls in 
situations of armed conflict and strengthens the United Nation's 
ability to respond to this violence. The resolution requests the 
Secretary General (SYG) appoint a Special Representative to lead, 
coordinate, and advocate for efforts to end violence against women and 
girls during conflict-related situations. It also requests the SYG to 
establish a team of experts--which will include experts in the rule of 
law, judicial systems, fair trial standards, security, and witness 
protection--to monitor implementation of resolution 1820 and to work 
with governments to help them take measures to end sexual violence in 
conflict and improve accountability.
    My colleague, Ambassador Melanne Verveer, and I look forward to 
utilizing our offices to raise awareness of violence against women and 
girls and to restore rule of law and accountability in conflict zones 
plagued by these serious atrocities.
    Mr. Chairman and members of the committee, once again I want to 
thank you for the opportunity to appear before you today and for your 
continued leadership on these difficult and important issues. I would 
be pleased to answer any questions you may have.

    The Chairman. Well, thanks very much, Mr. Ambassador.
    I'm not going to delay you all with a lot of questions, but 
one I would like to--a couple I'd like to ask--one, How do 
you--strategically, sort of--as you approach this issue and 
think about your roles, what's the methodology or leverage 
strategy for dealing with the violence that emanates from 
religious, either, extremism and/or deviation from legitimate 
dogma as a lot of this gets wrapped up in a kind of religious 
cloak in certain places, and I wonder if you'd help us think 
that through just for a moment.
    Ambassador Verveer. Well, certainly I think one of the 
places to look is to what women are doing in places where what 
you just described may be taking place. And one of the things 
that has happened in recent years is, for example, in 
predominantly Muslim countries, where extremists have hijacked 
the religion, and basically validated forms of oppression to 
say that it was somehow consistent with the values of the 
religion, that is now being challenged very significantly, 
particularly by women, but also by others within the religions, 
to really say, ``No, this has--this is not in concert with what 
we believe, these are not our values, our religion does not 
condone this kind of oppression and violence.'' And they are 
fighting back with really strategic ways, and bringing others 
into their orbit. Mullahs in the community have, for example, 
in Afghanistan, inserted these issues into the Friday prayer 
services to talk about why violence cannot be condoned.
    But, I think, you're right, these are very much entrenched, 
often culturally, and often in the name of religion, but not, 
obviously, appropriate to what the religious beliefs are. And 
so, the response has to come, often, in ways that can appeal to 
people who find themselves in those situations.
    I would also add that obviously this is a matter of 
universal human rights. Every woman knows, no matter what she 
believes, no matter what God she prays to, no matter where she 
lives, that deep inside her, she deserves respect, and there's 
nothing that can justify abusing her.
    So we are finding ways, but I think those ways are most 
often the lessons learned from the places that are dealing with 
them, and the kind of support that we can bring to those 
people, particularly women on the front lines, who are the 
voices of moderation and are leading many of the civil society 
efforts to go at this very problem.
    Ambassador Rapp. If I might add to that, having spent 8\1/
2\ years in Africa, often with people of a variety of 
religions, I think the key is that we need to partner with 
groups in the communities that are affected. In my experience, 
the best justice has been one in which we form an institution 
that has people from all cultures and backgrounds. And we find 
that people share the very same values; there's no religion 
that condones violence and murder and rape. And we work with 
the people in those societies that are carrying this fight; we 
help reinforce it, but we work to reflect their values at the 
same time as we support universal ones.
    The Chairman. In Iraq and Pakistan and Afghanistan, 
obviously, you have three countries that are very key to our 
national security interests, but also three countries with 
communities that suffer large-scale violence against women 
and--distinct gender imbalances. Are you satisfied with the 
efforts--and perhaps you can describe them--that are being made 
to ensure that our outreach toward civilian development will 
include, as a goal, the strengthening of women's status in 
those places? I know we just had the go-round on the issue with 
President Karzai and the law that was passed, but let's go 
beyond that a little bit, generically.
    Ambassador Verveer. Well, Senator, obviously I don't think 
any of us can ever say that we're completely satisfied, but we 
are making a great effort on this issue, particularly in terms 
of the very severe challenges that we confront in Afghanistan 
and Iraq, for example. And one of the things that we have done 
internally is put together a team, working very closely with 
all aspects of Afghan policy, that Ambassador Holbrooke is 
leading, as well as with our team in Kabul. And when it comes 
to assistance programs now, we are actually working very 
closely together with AID, with all the other actors, in a very 
concerted way to look at these various-- these very issues and 
how we are implementing them and really creating the kind of 
measurable outcomes we all want to see.
    The Chairman. Well, that's--go ahead.
    Ambassador Verveer. And the same thing is happening with 
respect to Iraq. We are working very closely with our 
Ambassador there, who is in charge of the assistance programs, 
and, in fact, our office is overseeing some specific grants 
that deal with women in these situations.
    The Chairman. And how are you finding the, sort of, 
internal response to that? I know that, in the past, women's 
issues have been relegated to the sidelines. And I know that, 
even though you've made it more central to the policy--and we 
applaud you for that--there's a certain, you know, turf 
warfare, slash, compartmentalized programming, and even 
attitudinal barrier that you have to get over. Are there any 
tools that you need that we could perhaps help with to effect 
change? Are there specific diplomatic efforts that we could 
help to engender, here? What do you think? That's my last 
question.
    Ambassador Verveer. Well, Senator, I do think that strong 
leadership comes from the top, and certainly Secretary Clinton 
has--and the President--have both expressed the importance of 
these issues, and have acted on them. Certainly in terms of 
developing a very strategic, comprehensive, governmentwide 
effort to go at all aspects of this, from domestic violence to 
violence against women in conflict, it, we--obviously, the 
kinds of things that you and the committee are looking at, in 
terms of enhanced structures and enhanced staff and resources, 
what you opened this hearing with, in terms of your own 
statement, would obviously make a huge difference in keeping 
this going forward. I think we're very much on the right track.
    The Chairman. Good.
    Ambassador Verveer. And we're trying to do all that we can 
to integrate these issues more effectively.
    The Chairman. Well, we appreciate it. And it's already a 
step forward just to have the two of you here and to have your 
position in the State Department. We appreciate it very much.
    Senator Boxer.
    Senator Boxer. Mr. Chairman, thank you so much for your 
leadership on this issue. We appreciate it so much. Your 
agreeing to broaden the subcommittee to look at this was so 
important, and I think Ambassador Verveer really took what you 
did seriously, and so did Secretary Clinton. And we are so 
grateful, both to you, Mr. Chairman, and to Secretary Clinton, 
because they're already taking more steps than I've seen in 
years, and it means a great deal to so many.
    I think what my chairman has pointed out is that this issue 
of violence against women worldwide, it really turns into a 
national security issue for us, because, if you look in these 
countries where women are so abused, these countries are 
unstable, they're weak, and the basic family unit is so 
disrupted that it makes it difficult for civil society to 
really function.
    I wanted to ask you a few questions about the steps you've 
already taken. And I'm so pleased about them. You talked about 
your trip, Ambassador, to the Democratic Republic of Congo with 
Secretary Clinton. And it really did a lot to raise awareness. 
It was all over American television. I was just so pleased. As 
you know, the situation is dire. And you saw it firsthand. And, 
according to the Department of State, approximately 1,100 rapes 
are being reported each month, with an average of 36 women and 
girls raped each and every day. And these numbers don't come 
close to telling the whole story, because experts tell us that 
rape is underreported, because of the stigma surrounding it.
    I thought what Secretary Clinton said yesterday is worth 
repeating. She said, ``The dehumanizing nature of sexual 
violence doesn't just harm a single individual or a single 
family, or even a single village or a single group, it sheds 
the fabric that weaves us together as human beings.'' I think 
that's a very moving statement.
    You testified, at a hearing, that I chaired with Senator 
Feingold, on sexual violence in the DRC and Sudan, back in May, 
and, as you know, we've sent a followup letter. And you have 
worked so quickly, along with the Secretary, to implement these 
initiatives, including yesterday's announcement, and your 
repeat of that announcement today, that there would be a new 
special representative to help end sexual violence against 
women and children in conflict zones. The reason this is so key 
is because, Mr. Chairman, with this special representative 
named--and they haven't named one quite yet, but when that 
person is named--we will have one place to go. This is so 
important, because the easiest way to dodge this issue is to 
say, you know, ``Go see him.'' And, you know, you turn around, 
and there's nobody responsible. This is a big deal. This is 
important.
    And we also asked that the United States work to train 
doctors to treat fistula patients, as well as to help establish 
all-female police units, and you are following through.
    You talked about--and on this trip, the Secretary talked 
about--the $17 million package to tackle these and other 
issues. So I have these questions. What specific plans have 
been made to distribute these funds? Have any of the funds been 
allocated already? How does the State Department plan to track 
how effectively they're spent?
    Ambassador Verveer. Thank you for that, Senator Boxer.
    Of the amount that she announced, $7 million was awarded to 
the IRC, specifically to deal with sexual gender-based violence 
in the Kivus. It will expand service delivery, build local 
capacity through medical training, and promote community 
reintegration, also work on economic empowerment programs, 
particularly through Women for Women, and targets some several 
thousands of women and girls specifically in the area in which 
we focused in the last hearing.
    Five million of--of the $10 million supplemental that was 
just received by the mission on September 28, $5 million of 
this is going to be applied to existing needs that have been 
documented, and $5 million will be distributed in new awards. 
We are providing increased support for training for fistula 
repair. And we have sent these assessment teams that I 
mentioned. Both USAID has been there on the ground, talking to 
folks at Panzi Hospital, at HEAL Africa, and other providers, 
for what they specifically need and what can be addressed and 
how we can work more collaboratively.
    Senator Boxer. Hey, I'm just cutting you off only because I 
have to ask you one more question. So we'll get that from you 
in writing so we can know exactly where the funds are going.
    Ambassador Verveer. Yes.
    [The written response of Ambassador Verveer follows:]

    Below please find an update on the $17 million SGBV package that 
the Secretary announced on her recent trip to the DRC:
    USAID recently awarded $7 million to the International Rescue 
Committee (IRC) for SGBV programming in North and South Kivu. The 
Espoir (``Hope'') Project will expand SGBV service delivery, train 
health care providers to serve as community SGBV focal points and 
support treatment at more than 65 local health care facilities, and 
promote community reintegration/livelihood training throughout the 
region. IRC will work with Women for Women International, several local 
NGOs, and more than 40 women-led community based organizations to carry 
out women's empowerment activities, economic strengthening and 
reinsertion activities, medical and legal referral, psychosocial care, 
and awareness raising.
    USAID received $10 million in FY09 supplemental funding on 
September 28. Of this funding, $3.75 million will go to support 
preexisting, successful programs throughout eastern DRC, including 
funding to the Coooperazione Internazionale (COOPI) and the IRC. COOPI 
is working in the Ituri District of the Orientale Province and in 
Maniema province with 24,000 SGBV survivors to address medical and 
psychosocial needs. The COOPI program transports a Dutch surgeon to 
perform fistula surgeries and train Congolese surgeons in fistula 
repair. An additional $6.25 million will be distributed in new awards. 
In November, USAID will solicit proposals from the NGO community for 
competitive awards using the supplemental funds. The new awards will 
address SGBV needs particularly in areas such as psychosocial 
treatment, economic empowerment, medical services, legal aid, and 
communication for behavior change and awareness-raising. These programs 
will be targeted toward survivors in more remote, hard-to-access areas, 
and designed to build on community awareness, prevention, and advocacy 
activities, both at the grassroots and national levels, focusing on 
community behavior change.
    I would like to reiterate that the U.S. Government, through USAID, 
fully intends to begin training additional medical service providers in 
Goma to treat women that require fistula repair, among other services 
needed for victims of sexual and gender-based violence.
    I will be sure to keep you fully informed of the developments 
surrounding the administration of these funds, as well as the concrete 
outcomes that result from our efforts. I look forward to continue 
working with you to address the pressing needs of women in the 
Democratic Republic of the Congo.

    Senator Boxer. So, my last question, I recently read a 
heartbreaking article posted on CNN about a 12-year-old girl in 
Ethiopia who was forced into marriage with a 24-year-old man. 
She died after struggling in labor for 3 days, and the baby 
died, too. If impregnating a 12-year-old is not an act of 
violence against a child, I don't know what is. According to 
the International Center for Research on Women, there are 51 
million married girls in the world today, and if nothing 
changes, another 100 million will be married within a decade. 
In countries such as Chad, Niger, and Bangladesh, the marriage 
rate for children under 18 is 70 percent. As you know, this has 
terrible implications for these young girls. According to the 
U.N. Population Fund, early marriage often halts a girl's 
education in its tracks; it increases maternal and infant 
mortality rates, as well as increasing the risk of contracting 
HIV/AIDS. What is the United States currently doing to raise 
this issue of forced child marriage?
    Ambassador Verveer. This issue has come up, regrettably, 
too many times. I can tell you the Secretary has raised it in 
her bilateral meetings. But, what we need to continue to do, 
and are doing in an ongoing way, is persuade countries to raise 
the age of marriage. This should not happen to any child--and 
also, we're working to find ways to ensure that children get to 
school and are safe in school. Girls who get an education are 
in situations where child marriage ceases to be the kind of 
problem you just described. So, we've got to do a lot more to 
address some of the root causes.
    I have heard of some very innovative programs, recently, 
where children--girls 10, 11, 12 years old--were given small 
amounts to buy a cow, for example, and can keep going to school 
while supporting her family.
    One child, for example, her father came to her and said, 
``I have selected someone for you to be married to,'' and she 
said, ``No, I'm not getting married.'' And he said, ``No, you 
are getting married,'' and she said, ``Well, if I'm getting 
married, I'm taking the cow.'' And he said, ``No, the cow 
belongs to us.'' And, in the end, she prevailed, because she 
had some worth in his eyes. She had a cow. And that education 
has to be made to be seen as worth. And we're doing a lot to 
incentivize families to send their girls to school, and other 
ways in which we can make the girl worth something that she is 
in every respect, but not always in the eyes of her family.
    Ambassador Rapp. If I might add, just, to that these 
``forced marriage of children'' violate the laws of almost 
every state, they violate regional and international covenants. 
I was pleased, recently in visiting Nigeria, that the ECOWAS 
court dealing with human rights in West Africa rendered a 
judgment against a child marriage that had happened in Niger. 
And what is really important, I think, in our diplomatic 
efforts, is we want to urge people to enforce these standards 
that are in their laws and that are in their covenants, and 
make sure that they mean something in the lives of girls like 
this one.
    The Chairman. Thank you very much.
    Ambassador Verveer. If I could just follow up on that, one 
second. I think Ambassador Rapp has touched on something that 
is a real problem, and not just with child marriage, and, that 
is, laws are passed--we have so many laws on the books now, in 
terms of violence against women--but we have got to ensure that 
those laws are implemented and enforced, and that is a big 
problem.
    The Chairman. Thank you very much, Ambassador.
    Senator Kaufman.
    Senator Kaufman. Thank you very much. Thank you very much, 
Mr. Chairman, for holding this historic hearing.
    It wasn't that many years ago that we sat down in then-
Senator Biden's office to talk about violence against women. As 
Ambassador Verveer knows, it was a very small group. And anyone 
who thinks that we can't have change should be sitting in this 
room and see how far we've come on violence against women in 
such a short time. I mean, it really is an incredible example 
of how, if enough people get behind what is a very, very, very, 
very, very, very, very, very good idea, you can do just about 
anything.
    We're talking about an International Violence Against Women 
Act. Can you--you know, I don't want you to get in detail or 
any of the rest of that, but what are the--kind of, the major 
elements, from each one of you, that you think you should be in 
any kind of International Violence Against Women Act--the one, 
kind of, indispensable things?
    Ambassador Verveer. Well, obviously we need a structure to 
ensure the effectuation within government in ways that really 
help us to advance the ball. The caliber and extent of our 
development programs, and how they go to address an overall 
comprehensive plan, is critical. And then, I think, in the 
nature of the security issues, particularly, working with the 
defense establishments and others, and the security arms of the 
United Nations, what has been advanced needs to go in a more 
concerted effort, and we need to utilize the tools that are 
becoming available, and we need to, obviously, ensure the 
political will. But, I would say, coming together in a way that 
is comprehensive, that involves all the key major players, will 
take us to that next place, Senator.
    Senator Kaufman. Ambassador Rapp.
    Ambassador Rapp. We've been talking, earlier today, about 
what's happening in the Democratic Republic of Congo, the 36 to 
40 rapes a day, the, thus far, inadequate response. And it's 
important that funding be authorized to improve those judicial 
processes there, to provide for prosecutors and police, and 
defense to be able to process those cases, and, if necessary, 
to take it up a level and even involve international personnel, 
from our country and from other countries, to partner there, to 
join and be parts of those institutions; not to control them, 
but to be with them. That, I think, is critical if we're going 
to take up our response to the level that'll be effective 
against this epidemic of sexual violence in that part of the 
world, and to respond to other situations as they occur.
    Senator Kaufman. You know, one of the things--we always 
talk about ``that part of the world.'' I was struck, during the 
problems in the Balkans, of--it was clear--it was clear that 
people decided to use rape as a way to advance their political 
agenda. And, it's--am I--it seems to me that that is becoming 
more and more commonplace, no matter what continent we're on, 
in terms of--about it--Africa always is the place that people 
point to, but the fact that it's in Bosnia, the fact that it's 
in other places, I just wonder, could you talk a little bit 
about that--in order to try to figure out how we can stop this?
    Ambassador Rapp. Absolutely. It was part of the ethnic 
cleansing, part of the way in which certain individuals sought 
to get their way in order to displace populations. I'm reminded 
of particularly horrendous testimony in the case of one of the 
individuals, recently convicted at the ICTY, who raped a woman 
and then--in front of her children--asked her to pick a knife 
from the kitchen. She did, and then he used that to kill her 
children, and then left her to live. Those kinds of things 
happened during that conflict. And we know it was the action of 
the prosecution at the Yugoslavia Tribunal in bringing the Foca 
case, involving the widespread rape in prison camps, that 
resulted in the first conviction in Europe for rape as a war 
crime. And, to some extent, I think a lot of us who saw that 
recognize that, in the past, these things may have happened, 
and they weren't recognized.
    Senator Kaufman. Yes.
    Ambassador Rapp. And that was a wake-up call, and people 
sort of opened their eyes to rape in conflict, which has always 
been there.
    But, I think it's also true that the amount of rape that's 
occurring, particularly in civil conflicts, is increasing. It's 
shown itself to be an effective tool for terrorizing 
populations, for displacing people, for humiliating a 
particular ethnic group; to some extent, for functional uses, 
creating bush wives for the rebel leaders and the rebels 
themselves, that they're rewarded for what they're doing. I 
mean, there's that aspect of it.
    But, we really are, when we look at situations like Sierra 
Leone, into a situation where it is so much more dangerous to 
be a civilian woman in a conflict zone than it is to be a 
soldier, quite a difference from, say, the conflict in World 
War I.
    So, I think it is getting worse. And, as it becomes worse, 
it behooves us, I think, to crank up our response. The legal 
tools are there. The laws are internationally recognized, to 
criminalize this kind of conduct. The theories for holding 
leaders responsible, when its part of a strategy or common 
scheme or plan, we won; now we have to have those laws enforced 
by the courts, from top to bottom.
    Senator Kaufman. Great.
    I want to thank you both for everything you do.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Kaufman.
    There are a lot more questions, but, because of the 
timeframe this afternoon--and I, unfortunately, have to chair a 
meeting with the President of Somalia, who is coming in, and we 
need to talk to him, so I don't want to--maybe Senator Kaufman 
can, you know, continue the process. But, we have another 
panel, and I want to make sure we have time for everybody to be 
able to be heard.
    Is there anything that you feel any of the questions have 
left unsaid or prompted you to want to say before we do move to 
the next panel? I want to make sure you have a chance to--if 
there's anything that you think you'd like to use as a wrap-up, 
or----
    Ambassador Verveer. I would just reiterate that, obviously, 
the magnitude of this challenge is one that's not to be 
underestimated. And for us to continue to do the kind of 
serious work that has been started, and the aspects of it that 
Ambassador Rapp described, we are going to need a real 
concerted effort across our government, with resources and the 
kinds of other elements that will make it possible.
    The Chairman. Well, we'll give you all the support that we 
can. One thing I would say to both of you--I mean, I think the 
legal steps you took are superb. And we have to be prepared--
and we can do this. I mean, you know, we have to--we have to 
exert the moral, value-based leadership that is essential to 
carrying this into the international fora, where we can press 
this. And, I think, just the fact that we do that will create a 
consciousness and begin to have an impact on behavior. It's not 
going to change it all over night, we all understand that. But 
we've got to press legal avenues, where we can. You know, we've 
got to hold leaders accountable, where these, you know, so- 
called ``generals'' in some parts of the world run amok in 
their rebel efforts or other efforts, they just seem to, you 
know, go off, with the exception of the--Charles Taylor and, 
you know, that sort of prosecution.
    I think that if the global community were to prove itself a 
little more effective and united in trying to press some of 
these causes--but, of course, we have some big countries, who 
are important to some other choices, who are always afraid that 
somehow this may turn around and come back. And we understand 
that dynamic full well.
    Nevertheless, we have to press forward. And I'm confident, 
Madam Ambassador--I know you and I know your boss are deeply 
dedicated to this, so we'll look forward to keeping--keep it on 
moving.
    Senator Kaufman. Can I say one thing?
    The Chairman. Absolutely.
    Senator Kaufman. Mr. Chairman, I couldn't agree more. And I 
also think--something that our chairman's been a leader on, and 
that is maintaining the moral--United States maintaining the 
moral high ground. I mean, this is absolutely key. I mean, we 
had a lot of discussions about a lot of individual issues, and 
I think there've been periods in our past when kind of saying 
the moral thing or the right thing to do was kind of like, 
``Oh,'' you know, ``you just don't get it. It's not real 
politik. This is the way we have to do it. That's not the way 
you do these kind of things.'' But, this is a perfect example 
of, as I say, the chairman's leadership in maintaining the 
moral high ground on a whole series of issues, that have 
nothing to do with these specific issues, but maintain, once 
more, America is the city on the hill that everybody aspires 
to. And I think it's only by maintaining this moral leadership 
that we can deal with these issues that are cultural, in many 
cases, and legal, and getting other people to rally around.
    They want us to do this. I am absolutely convinced. I've 
traveled all over the world. They want America to be the moral 
leader, to lead on these kinds of things. So, I think, you're 
right on point here, Mr. Chairman.
    The Chairman. Thank you. Thank you very much, Senator 
Kaufman. I wish I was, as usual. But, anyway--I have to say 
that that there are times when you just--you read these stories 
of--I mean, that story of what happened in Afghanistan, of that 
couple who are, you know, killed because they love each other, 
and they cross some line, and it's just--you know, it just 
chills you. And there are so many stories like--I mean, it 
doesn't matter--there are so many parts of the world where 
that's an everyday occurrence. So, we do have to speak out. 
This is at the core of our DNA, if you will, and we shouldn't 
turn our backs on it.
    So, thank you for being here today. We really appreciate it 
very, very much.
    If we could, sort of, smoothly move the second panel up as 
quickly as possible, with as low a disruptive level, that'd be 
terrific, and we will continue on while I introduce them.
    The Honorable Donald Steinberg is the deputy president of 
the International Crisis Group, former Ambassador to Angola. 
Ambassador Steinberg has a long history of diplomatic service 
in Africa. He's an expert on peace negotiations and prevention 
of armed conflict. He currently advises a number of 
organizations that advocate on behalf of women in humanitarian 
conflict settings.
    Maj. Gen. Patrick Cammaert has served several United 
Nations peacekeeping missions, including Cambodia, Bosnia, 
Ethiopia, and Eritrea, and he was the force commander for MONUC 
in the eastern division of the Democratic Republic of Congo. 
He's an expert on international peace and security, civil/
military cooperation, and peace support operations, 
peacekeeping, and security-sector reform.
    Dr. Geeta Rao Gupta is the president of the International 
Center on Research on Women, ICRW, an advocacy organization 
that conducts research and advocates for evidence-based 
practical ways to change policies and programs on gender 
equality in the developing world. And Dr. Rao Gupta is a 
leading expert on women's role in development programs.
    And Ms. Esta Soler is the founder and president of the 
Family Violence Prevention Fund. For the past 30 years, her 
organization has developed innovative strategies to prevent 
domestic dating and sexual violence, and was a driving force 
behind passage of the Violence Against Women's Act of 1994.
    And, if I may be a tiny bit parochial for a moment, or 
semiparochial, a friend of mine, and a hero to many people in 
Massachusetts and around the country, who works with Esta 
Soler's organization is--this is an organization that works 
with--focusing on men and boys, and creating a positive role 
model for boys to respect girls and women, and say no to 
violence against them. And she--I know she's proud of this 
fact, but, M.L. Carr, formerly of the Boston Celtics, is here 
with us. He's the towering fellow seated up there. M.L., why 
don't you stand up, there? There you go. Thank you. All right.
    [Applause.]
    The Chairman. And I want to note that today M.L. was 
supposed to be receiving an award from his college in Alabama, 
but he dropped everything in order to come here for this 
hearing. And he believes--he works with this effort, in 
reducing violence against girls. And I really appreciate you 
coming up here, M.L. Thanks so much. It means a lot to 
everybody.
    So, on that note, if we could--Major General, if we could 
start with you, and run down the line, that'd be terrific. 
Thank you.
    If you all could summarize your testimonies, your full 
statements will be placed in the record as if read in full, and 
that gives us a little time to chat.

   STATEMENT OF MAJ. GEN. PATRICK CAMMAERT, FORMER MILITARY 
   ADVISER TO THE U.N. SECRETARY GENERAL, FORMER U.N. FORCE 
  COMMANDER FOR THE EASTERN DEMOCRATIC REPUBLIC OF CONGO, NEW 
                            YORK, NY

    General Cammaert. I'll keep it within 5 minutes, Mr. 
Chairman.
    The Chairman. Sounds good to me.
    General Cammaert. Thank you, Chairman Kerry and all the 
members of the Senate Foreign Relations Committee, for inviting 
me here today and taking the time to talk about this important 
issue.
    My name is Patrick Cammaert, and I retired in 2007 as a 
major general, after 39 years in service. Operating in conflict 
zones have been large parts of my career. Most importantly 
during the years, I served with the United Nations Department 
of Peacekeeping Operations, DPKO. I have witnessed that 
violence directed at women and girls can be a particularly 
potent tool of war. The weapon of rape may be less exposed than 
those of nuclear missiles or bombs, but being cheaper than 
bullets and more silent than bombs makes it the tactic of 
choice for rebel groups.
    In the eastern part of the Democratic Republic of Congo, I 
have seen the perpetrators of these crimes: Armed groups, 
rebels, and, many times, members of the government, army, and 
police. I have also seen the victims, women and girls, 
sometimes as young as 9, whose insides were blown apart by 
rifle blasts. The level of brutality is shocking, even by the 
twisted standards of a place haunted by warlords and drug-
crazed child soldiers.
    I will never forget the three girls we found in the 
vicinity of an internally displaced people camp, naked. A group 
of militias had raped them in front of their family, before 
killing their parents, aunts, uncles, brothers, and sisters. 
The girls pretended to be dead, and survived. We covered them 
with our T-shirts. It was the least we could do for them.
    Sexual violence has been identified as a tactic of modern 
warfare in several conflicts, most importantly in the eastern 
part of the DRC and in Darfur. It is also identified as a war 
crime, a crime against humanity, and form of genocide. But, 
recognition has not been a very effective deterrent. This form 
of atrocity continues. And, if anything, is intensifying in 
brutality and frequency.
    Violence against women--in particular, sexual violence--has 
special characteristics that have kept it off the radar of 
national, regional, and international security institutions.
    Ladies and gentlemen, sexual violence is not a gender or 
woman's issue; it's a security issue. And let me give you six 
reasons.
    First, organized rape undermines public order. Sexual 
violence is a remarkably efficient means of severing family and 
community bonds, tearing apart families and whole communities. 
Sexual terror targeting women and children has forced countless 
families to flee their homes, daring never to return.
    Second, sexual violence prolongs conflict. Rape and pillage 
is often the only incentive arms-bearers have to continue 
fighting. Or, as a colleague of mine, the former United Nations 
Special Representative in Bosnia-Herzegovina, Elizabeth Rehn, 
was told by a former commander, ``How can you expect us to tell 
subordinate commanders that their troops can't rape, when it's 
the only thing they have to offer them.''
    Third, sexual violence undermines chances for an inclusive, 
sustainable peace because it precludes women's participation 
through intimidation. It also hampers sustainable development. 
No nation can achieve development while raping its greatest 
resource.
    Fourth, if perpetrators are not prosecuted--and they rarely 
are, because of inadequate response to sexual violence in 
national and international transitional justice systems--it is 
very difficult to rebuild these systems and respect for the 
rule of law. Impunity for perpetrators means that known rapists 
and torturers go free, often to assume positions of national 
and local leadership. For example, Mr. Bosco Ntaganda, 
nicknamed ``The Terminator'' in the eastern part of the Congo, 
is now a brigadier general in the FARDC, the Congolese Army. He 
is high on the list of the International Criminal Court. And, 
in the past, the U.S. Government has asked to hand him over; 
however, recent high-level visits, even by the Security 
Council, never mentioned him, which is very disappointing.
    Fifth, rampant sexual violence increases the spread of HIV/
AIDS, which the Security Council has recognized as a threat to 
international security.
    And sixth, sexual violence is an inexpensive and highly 
destructive weapon that effectively destabilizes societies and 
creates conditions ripe for terrorism.
    Ladies and gentlemen, strong military and security-sector 
responses are needed from the apex global security 
institution--the United Nations Security Council--as well as 
from regional and national security institutions. In a meeting 
with the leaders of top troop-contributing countries, President 
Obama acknowledged that, ``United Nations peacekeeping can 
deliver important results by protecting civilians, helping to 
rebuild security, and advancing peace around the world. To 
succeed, United Nations missions and contributors need to be 
better equipped and supported to fulfill ambitious mandates, be 
it securing territory or protecting civilians from violence, 
including sexual and gender-based violence.''
    It might be true that it is extremely difficult to find 
effective military and security responses to sexual violence; 
however, there is no doubt that there are actions that can make 
a difference. The United States can take a lead position to 
encourage the Security Council and other security institutions 
to take urgent steps to reverse a global culture of impunity 
for sexual violence. Peacekeepers, police, and military could 
help in prevention and in the apprehension of perpetrators as 
support for prosecutions. And a stronger focus on encouraging 
the participation of women military and police by troop- and 
police-contributing countries, including by the United States, 
is a positive sign.
    The Senate should exercise its oversight role to ensure the 
United States Government investments in security training are 
effective. United States soldiers and foreign soldiers and 
police should receive proper training for what they will 
encounter and clear instruction on how to intervene.
    And last, the International Violence Against Women Act is 
an opportunity to offer a comprehensive approach to this 
critical issue and to formulate new policy that places a 
priority on addressing the security threat. Sexual violence as 
a weapon of war creates instability and fosters terror. It must 
be addressed as a serious element of foreign policy and 
conflict intervention.
    Thank you.
    [The prepared statement of General Cammaert follows:]

   Prepared Statement of Maj. Gen. Patrick Cammaert, Former Military 
Advisor to the U.N. Secretary General, Former U.N. Force Commander for 
         the Eastern Democratic Republic of Congo, New York, NY

    Thank you Chairman Kerry, Senator Lugar, and all the members of the 
Senate Foreign Relations Committee for inviting me here today and 
taking the time to talk about this important issue. My name is Patrick 
Cammaert. I retired in 2007 as a major general after 39 years in 
service. Operating in conflict zones have been large parts of my 
career, most importantly during the years I served with the United 
Nations Department of Peacekeeping Operations (DPKO). I have witnessed 
that violence directed at women and girls can be a particularly potent 
tool of war. The weapon of rape may be less exposed than those of 
nuclear missiles or bombs. But being cheaper than bullets and more 
silent than bombs makes it a tactic of choice for rebel groups.
    Sexual violence has been identified as a tactic of modern warfare 
in several conflicts, most importantly in the eastern part of the DRC 
and in Darfur. It is also identified as a war crime, a crime against 
humanity and a form of genocide. But recognition has not been a very 
effective deterrent. This form of atrocity continues, and if anything 
is intensifying in brutality and frequency. Violence against women, and 
particularly sexual violence, has special characteristics that have 
kept it off the radar of national, regional, and international security 
institutions.
    Ladies and gentleman, sexual violence is not a gender or women's 
issue; it is a security issue. Why--you may ask--is this a security 
problem nationally and internationally? Let me give you six reasons:

  <bullet> First, organized rape undermines public order. Sexual 
        violence is a remarkably efficient means of severing family and 
        community bonds tearing apart families and whole communities; 
        sexual terror--targeting women and children--has forced 
        countless families to flee their homes, daring never to return.
  <bullet> Second, sexual violence prolongs conflict--rape and pillage 
        is often the only incentive arms-bearers have, to continue 
        fighting. Or as a colleague of mine, the former U.N. SRSG in 
        Bosnia-Herzegovina, Elisabeth Rehn, was told by a former 
        commander: ``How can you expect us to tell subordinate 
        commanders that their troops can't rape when it's the only 
        thing they have to offer them.''
  <bullet> Third, sexual violence undermines chances for an inclusive, 
        sustainable peace because it precludes women's participation 
        through intimidation. It also hampers sustainable development; 
        no nation can achieve development, while raping its greatest 
        resource.
  <bullet> Fourth, if perpetrators are not prosecuted--and they rarely 
        are because of inadequate response to sexual violence in 
        national and international transitional-justice systems--it is 
        very difficult to rebuild these systems and respect for the 
        rule of law. Impunity for perpetrators means that known human 
        rights abusers go free, often to assume positions of national 
        and local leadership.
  <bullet> Fifth, rampant sexual violence increases the spread of HIV/
        AIDS, which the Security Council has recognized as a threat to 
        international security.
  <bullet> Sixth, sexual violence is an inexpense and highly 
        destructive weapon that effectively destabilizes societies and 
        creates conditions ripe for terrorism.

    Ladies and gentlemen, strong military and security-sector responses 
are needed from the apex global-security institution--the U.N. Security 
Council--as well as from regional and national-security institutions. 
In a meeting with the leaders of top troop contributing countries, 
President Obama acknowledged that ``U.N. peacekeeping can deliver 
important results by protecting civilians, helping to rebuild security, 
and advancing peace around the world. To succeed, U.N. missions and 
contributors need to be better equipped and supported to fulfill 
ambitious mandates, be it securing territory or protecting civilians 
from violence, including sexual and gender-based violence.'' It might 
be true that it is extremely difficult to find effective military and 
security responses to sexual violence. However, there is no doubt that 
there are actions that can make a difference:

  <bullet> The United States can take a lead position to encourage the 
        Security Council and other security institutions to take urgent 
        steps to reverse a global culture of impunity for sexual 
        violence.

    <all> Peacekeepers, police and military, could help in prevention, 
            and in apprehension of perpetrators and support for 
            prosecutions.
    <all> A stronger focus on encouraging the participation of women 
            military and police by troop/police-contributing countries, 
            including by the United States is a positive sign.

  <bullet> The Senate should exercise its oversight role to ensure U.S. 
        Government investments in security training are effective. U.S. 
        soldiers and foreign soldiers and police should receive proper 
        training for what they will encounter and clear instruction on 
        how to intervene.
  <bullet> The International Violence Against Women Act is an 
        opportunity to offer a comprehensive approach to this critical 
        issue and to formulate new policy that places a priority on 
        addressing this security threat.

    Sexual violence as a weapon of war creates instability and fosters 
terror; it must be addressed as a serious element of foreign policy and 
conflict intervention.

    The Chairman. General, thank you very, very much. Very 
important, significant testimony, and we're very appreciative 
of your being here. We also thank you very much for your 
service.
    Ambassador Steinberg.

     STATEMENT OF HON. DONALD STEINBERG, DEPUTY PRESIDENT, 
   INTERNATIONAL CRISIS GROUP, FORMER AMBASSADOR TO ANGOLA, 
                       BRUSSELS, BELGIUM

    Ambassador Steinberg. Thank you, Mr. Chairman. And again, 
thank you for bringing us together to discuss this vital issue 
of global violence against women. My testimony will focus on 
eliminating such violence through the protection and 
participation of women in peace processes.
    I've been helping to negotiate and implement peace 
agreements in Africa, Latin America, Europe, and Asia for some 
30 years. And if there are three lessons I've learned from this 
that are applicable to this discussion, they are the following. 
First, the systematic exclusion of civil society, and 
especially women, from peace processes, is a key reason in why 
half of these agreements fail in the end, and violence recurs. 
Second, how we make peace determines whether the end of armed 
conflict brings a safer world for women or simply a different 
and, in many cases, more pernicious kind of violence against 
them. And finally, given that the failure to consolidate peace 
today doesn't just affect the people of that country, but opens 
the door to terrorist training camps, new routes for 
trafficking of women, arms, and illegal drugs, a flood of 
refugees, incubation of pandemic diseases, and now even piracy, 
we exclude the talents and insights of half the population, and 
relegate them to mere victimhood, at our own peril.
    The issues of women's empowerment and protection are 
entering a new phase. It's perhaps tragic that it's taken the 
graphic images of women raped in the Eastern Congo, and girls 
in Afghanistan getting acid thrown in their faces for daring to 
return to school, to touch our collective international 
conscience, but the world is responding--in the United Nations, 
with our government, on this committee--with some strong new 
programs and commitments that you've heard about.
    It's especially welcome, in this country, that this 
bipartisan effort with, for example, Secretary Rice leading and 
spearheading the 1820 passage, and now Secretary Clinton 
following up with Resolution 1888. And hopefully, we will soon 
be able to celebrate the reintroduction and quick passage of 
the International Violence Against Women's Act.
    Our key challenge now is to translate these developments 
into real protection for women facing violence in armed 
conflict. For me, these developments are long overdue and 
they're deeply personal. In 1994, while serving as President 
Clinton's adviser for Africa, I supported negotiating to end 
two decades of civil war in Angola that had cost a half-million 
lives. When the Lusaka Protocol was signed, I remember giving a 
speech, where I bragged that there wasn't a single provision in 
that agreement that discriminated against women. The agreement, 
I said, was ``gender neutral.'' Well, President Clinton then 
asked me to serve as Ambassador to Angola and it took about 2 
weeks on the ground for me to realize that an agreement that 
calls itself ``gender neutral'' is, by definition, 
discriminatory against women.
    First, the agreement didn't require the participation of 
women at the peace table; and so, we had 40 men and no women 
sitting around the table implementing this agreement. Not only 
did this silence the voice of women on hard issues of peace and 
war, but it meant that issues like sexual violence, human 
trafficking, accountability for abuses of armed forces, 
reproductive health care, and girls' education were basically 
ignored.
    The peace agreement was based on 13 separate amnesties that 
forgave the parties for atrocities committed during the 
conflict. There was even one amnesty that forgave the parties 
for anything they might do 6 months into the future. Given the 
prominence of sexual abuse during the conflict, including rape 
as a weapon of war, amnesty meant that men with guns forgave 
other men with guns for crimes committed against women. The 
amnesties also introduced the cynicism at the heart of our 
efforts to rebuild justice and security sectors.
    Demobilization programs for ex-combatants defined a 
``combatant'' as anyone who turned in a gun, and thus, 
thousands of women who had been kidnapped or coerced into the 
armed forces were excluded, including so-called ``bush wives'' 
and ``sex slaves.'' Demobilization camps were rarely 
constructed with women in mind, creating situations where women 
risked rape each time they left the camp to get firewood or 
used latrines in isolated and dimly lit settings.
    Male ex-combatants received some demobilization benefits, 
but then they were sent back to communities that had learned to 
live without them during many decades of conflict. And thus, 
the frustration of these men exploded into an epidemic of 
alcoholism, drug abuse, divorce, rape, and domestic violence, 
which was especially true among young boys, who had never 
learned how to interact with girls their own age on an equal 
basis. In effect, the end of civil war unleashed a new era of 
violence against women and girls.
    We recognized these problems, and we brought out gender 
advisers and launched programs in reproductive health care, 
girls' education, microenterprise, et cetera, et cetera, but by 
then women had decided that the peace process was only serving 
the interests of the men with the guns. And when the peace 
process faltered a few years later, there was little public 
pressure on the leaders to force them to return to the peace 
table, and the war reemerged.
    Mr. Chairman, Angola is not an isolated case. Around the 
world, talented women peacebuilders face discrimination and 
threats of violence that make even the most courageous women 
think twice about stepping forward. Statistics show that only 1 
of 14 participants in recent peace negotiations were women. In 
recent accords on Indonesia, Nepal, Somalia, Cote d'Ivoire, 
Philippines, and the Central African Republic, there wasn't a 
single woman signatory, mediator, or negotiator. And at donors 
conferences to support these accords, only 5 percent of the 
money that was actually allocated referred at all to women and 
girls, even though, for example, we know that girls' education 
is the single best investment that we can make in the stability 
of a society.
    My written testimony identifies some practical steps that 
the U.S. Government can take to advance this agenda. One area 
I'd like to highlight orally is preventing violence against 
women in situations of population displacement. Humanitarian 
agencies recently adopted guidance, based on good work of the 
Women's Refugee Commission, on providing cooking fuel in 
refugee camps to put a stop, once and for all, to the rape of 
women and girls during the collection of firewood. The United 
States should mobilize donors to ensure that resources are 
available to implement these provisions, starting with the 
high-risk regions of Sudan, Chad, Eastern Congo, and the huge 
Daadab refugee camp in Kenya.
    Mr. Chairman, let me conclude by noting that the artificial 
line that we used to say separated the so-called ``soft 
issues'' of human security and the ``hard issues'' of national 
security has vanished forever. There are no more soft issues. 
There's nothing soft about going after traffickers who turn 
women and children into commodities. There's nothing soft about 
preventing armed thugs from abusing women in refugee camps, or 
holding warlords and government soldiers alike accountable for 
their crimes against women. There's nothing soft about forcing 
demobilized soldiers to refrain from domestic violence or 
insisting that women have a seat at the table in peace 
negotiations and post-conflict governments. These are, in fact, 
the hardest challenges we face on our global agenda, and I 
salute your leadership in bringing us together to try to find 
solutions to them.
    Thank you.
    [The prepared statement of Ambassador Steinberg follows:]

   Prepared Statement of Hon. Donald Steinberg, Deputy President for 
    Policy International Crisis Group, Former Ambassador to Angola, 
                           Brussels, Belgium

    Mr. Chairman. I would like to begin by thanking you and ranking 
member, Senator Lugar, for your initiative in bringing us together to 
address the issue of global violence against women, and for your 
continuing leadership on these issues. My testimony will focus on 
eliminating such violence by promoting protection and participation of 
women in the pursuit of peace.
    For those of us who have spent decades working on issues of women's 
empowerment and protection in conflict situations, these are exciting 
times. There is a growing awareness not only of the personal costs of 
violence against women, but of the tremendous collective costs such 
violence imposes on the global community in failing to achieve our 
goals of building peace, pursuing development, and reconstructing post-
conflict societies.
                           signs of progress
    It is tragic that it has taken graphic images of women raped in the 
Eastern Congo, and young girls with acid thrown in their faces in 
Afghanistan for daring to return to school to shame our collective 
conscience, but the world is responding. At the United Nations, U.N. 
Action Against Sexual Violence in Conflict is bringing together the 
enhanced work of a dozen separate agencies to stop rape now. Security 
Council Resolution 1820, spearheaded by former Secretary of State 
Condoleezza Rice, and a new resolution passed under the stewardship of 
Secretary of State Hillary Clinton yesterday have created a special 
representative for eliminating violence against women, mandated new 
measures of accountability for action, created structures to name and 
shame parties not protecting women against sexual violence, authorized 
the use of U.N. sanctions in such cases, and defined sexual violence 
itself as a threat to international peace and security. The creation of 
a new U.N. Under Secretary General for women's affairs has the 
potential to end the disarray that has bedeviled the efforts of UNIFEM 
and its sister agencies, if key steps are taken to ensure its 
effectiveness and relevance.
    Within the U.S. Government, the formation of the State Department's 
Office for Global Women's Affairs under the formidable Ambassador 
Verveer; enhanced programs within USAID and the State Department's 
Bureau of Population, Refugees and Migration; and the leadership 
provided by this committee, President Obama, Secretary Clinton, and 
Ambassador Rice are encouraging. And hopefully, we will soon be able to 
celebrate the reintroduction and quick passage of the International 
Violence Against Women Act. Now is the time for this landmark 
legislation.
    Our challenge now is to translate these developments into enhanced 
protection for women facing violence in the context of armed conflict.
                           a cautionary tale
    For me, these steps are both long overdue and deeply personal. In 
1994, while serving as President Clinton's advisor for Africa, I 
supported negotiations to end two decades of civil war in Angola that 
had killed a half million people and left four million homeless. When 
the Lusaka Protocol was signed, I boasted that not a single provision 
in the agreement discriminated against women. ``The agreement is 
gender-neutral,'' I said in a speech.
    President Clinton then named me Ambassador to Angola. It took me 
only a few weeks after my arrival in Luanda to realize that a peace 
agreement that calls itself ``gender-neutral'' is, by definition, 
discriminatory against women.
    First, the agreement did not require the participation of women in 
the implementation body. As a result, 40 men and no women sat around 
the peace table. This imbalance silenced women's voices and meant that 
issues such as sexual violence, human trafficking, abuses by government 
and rebel security forces, reproductive health care, and girls' 
education were generally ignored.
    The peace accord was based on 13 separate amnesties that forgave 
the parties for atrocities committed during the conflict. Given the 
prominence of sexual abuse during the conflict, including rape as a 
weapon of war, amnesty meant that men with guns forgave other men with 
guns for crimes committed against women. The amnesties introduced a 
cynicism at the heart of our efforts to rebuild the justice and 
security sectors.
    Similarly, demobilization programs for ex-combatants defined a 
combatant as anyone who turned in a gun. Thousands of women who had 
been kidnapped or coerced into the armed forces were largely excluded, 
including so-called bush wives and sex slaves. And demobilization camps 
were rarely constructed with women in mind, such that women risked rape 
each time they left the camp to get firewood or used latrines in 
isolated and dimly lit settings.
    Male ex-combatants received demobilization assistance, but were 
sent back to communities that had learned to live without them during 
decades of conflict. The frustration of these men exploded into an 
epidemic of alcoholism, drug abuse, divorce, rape, and domestic 
violence. This was especially true for young boys, who had never 
learned how to interact on an equal basis with girls their own ages. In 
effect, the end of civil war unleashed a new era of violence against 
women and girls.
    Even such well-intentioned efforts as clearing major roads of 
landmines to allow 4 million displaced persons to return to their homes 
backfired against women. Road clearance sometimes preceded the demining 
of fields, wells, and forests. As newly resettled women went out to 
plant the fields, fetch water, and collect firewood, they faced a new 
rash of landmine accidents.
    We recognized these problems, and brought out gender advisers and 
human rights officers; launched programs in reproductive health care, 
girls' education, microenterprise, and support for women's NGOs; and 
involved women in planning and implementing all our programs. But by 
then, civil society--and particularly women--had come to view the peace 
process as serving only the interests of the warring parties. When the 
process faltered in 1998, there was little public pressure on the 
leaders to prevent a return to conflict, and war soon reemerged.
                     making peace matter for women
    We all recognize that when social order breaks down it is women and 
girls who suffer most, especially when rape is used as a weapon of war. 
But how we make peace is equally important in determining whether the 
end of armed conflict means a safer world for women or simply a 
different and in some cases more pernicious era of violence against 
them.
    Angola is sadly not an isolated case. Around the world, talented 
women peacebuilders face discrimination in legal, cultural and 
traditional practices, and threats of violence make even the most 
courageous women think twice before stepping forward. Groundbreaking 
research under Anne Marie Goetz at UNIFEM shows that only one in 14 
participants in recent peace negotiations since 1992 have been women. 
In recent accords on Indonesia, Nepal, Somalia, Cote d'Ivoire, 
Philippines and Central African Republic, there was not a single woman 
signatory, mediator, or negotiator. Of 300 cease-fire accords, power-
sharing arrangements and other peace agreements negotiated since 1989, 
just 18 of them--just 6 percent--contain even a passing reference to 
sexual violence. For conflicts in Bosnia, Liberia, Sierra Leone, and 
Somalia--where such violence was a dominant feature of the fighting--
the peace accords are silent.
    Similarly, in emergency funding to support 23 post-conflict 
situations since 2006, only 3 percent of the projects included specific 
funding for women and girls--this despite our knowledge that girls' 
education, for example, is the single best investment in promoting 
stable societies and improving socioeconomic standards in these 
countries.
    To cite one example of great national interest now, it is deeply 
disturbing, given the Taliban's abhorrent record in Afghanistan on 
women's rights and access for women and girls to education and health 
services during their tenure in power, that the insurgents have made 
in-roads by arguing that women in Afghanistan today suffer broadly from 
the lack of security, corruption, rights abuses and civilian 
casualties. Sporadic and regional advances in political participation 
by women and school attendance by girls have been offset by a failure 
to insist on accountability for warlords whose forces committed sexual 
violence during the years of conflict, and continue such abuse today. 
Instead, a number of these criminals have been given positions of 
power.
    The murder of women leaders and human rights defenders in 
Afghanistan and the failure of the government to identify and prosecute 
attackers underlines the impression of a lack of national commitment to 
women's rights. Not only has the Karzai administration failed to 
publicly articulate a vision of women's rights that is both home-grown 
and consistent with traditional Afghan Islamic society, it has 
demonstrated a willingness to treat women's rights as a bargaining chip 
to win support from traditional leaders. Thus, it has ceded the debate 
to those who erroneously argue that such efforts are an alien concept 
imposed on Afghanistan by foreigners and their Afghan ``puppets.''
    We can no longer afford to exclude the talents and insights of half 
the population in the pursuit of peace or to treat them as mere 
victims, because the stakes of game have risen dramatically. Failure to 
consolidate peace and stability no longer impacts just the people of 
that country, but opens the door to training camps for global 
terrorists; new routes for trafficking of persons, arms and illegal 
drugs; flood of refugees across borders and even oceans; incubation of 
pandemic disease; and even piracy.
         collective action: imperatives for the united nations
    Given the importance of collective action in addressing these 
challenges, I wanted to discuss as well what the United States can do 
in collaboration with the United Nations to pursue these objectives.
    Despite the positive steps cited earlier, the United Nations has 
thus far failed to lead by example, in part because of a gender 
architecture that identifies no lead agency, mandates no clear division 
of responsibilities, and holds no one accountable. This situation 
thwarts the efforts of many dedicated and talented professionals 
working in such entities as the UNIFEM, the Office of the Special 
Adviser for Gender Issues, the Division for the Advancement of Women, 
the International Research and Training Institute for the Advancement 
of Women, the Commission on the Status of Women, the Special Rapporteur 
on Violence Against Women, the Peacebuilding Commission, and others. 
Their work is currently underfunded and poorly coordinated.
    Given that the ideal solution--a single agency with at least $1 
billion in dedicated funding, a so-called ``UNICEF for Women''--seemed 
beyond reach, the U.N. General Assembly last month approved the 
creation of a single office, headed by an Under Secretary General, to 
ensure greater coordination and synergies, and raise the profile of 
women's issues at the U.N. Secretariat in New York and in U.N. missions 
abroad. The details of this office were put aside to be worked out 
later under the direction of the new Under Secretary General. But the 
potential impact of this change on women in the real world is all about 
the details. As the NGO coalition Gender Equality Architecture Reform 
points out, the following commitments must be secured:

  <bullet> Women in civil society around the world--and especially from 
        conflict-related countries--must have a real voice in the new 
        entity, not just on an ad hoc consultative basis, but through a 
        formal decisionmaking role on issues that impact their lives. 
        The principle must be, ``Nothing about us without us.''
  <bullet> The office must be mandated to develop and promote time-
        bound goals backed by monitoring, accountability, and 
        enforcement mechanisms for achieving reductions in violence 
        against women, participation of women in peace processes, 
        allocation of reconstruction resources to projects of interest 
        to women, and the like. There must be rewards for achieving 
        these objectives and sanctions for failing to do so.
  <bullet> There must be a quantum jump in the resources dedicated to 
        these issues, especially for projects in conflict impacted 
        countries--up to $1 billion per year, or just about 30 cents 
        per woman. If increased resources are to depend on voluntary 
        contributions, pledges must be made now and the Secretary 
        General must make obtaining those resources among his highest 
        priorities. This will ensure a presence for the entity in all 
        impacted countries.
  <bullet> The new Under Secretary General must be a world-class 
        figure, with the capacity to generate public attention, 
        mobilize political will among governments, and ``work'' the 
        U.N. system. The Secretary General must give this leader the 
        respect and resources needed to do her job, and access to the 
        U.N. General Assembly and Security Council.

    The United States should provide additional financial support for 
this office with voluntary contributions that permit it to achieve 
broad presence in conflict countries and effective mainstreaming of 
gender issues within the entire U.N. community. U.S. assistance can 
help ensure the upgrading of the role of gender advisers in U.N. 
missions, and to promote their success through training and mentorship.
                 unsc resolution 1325: a dream deferred
    The fight against sexual violence against women can only be won in 
conjunction with efforts to implement U.N. Security Council Resolution 
1325, a groundbreaking resolution passed in October 2000. Resolution 
1325 is a roadmap to promoting women's full engagement in peace 
negotiations, gender balance in post-conflict governments, properly 
trained peacekeepers and local security forces, protection for 
displaced women and accountability for sexual violence. It urges the 
Secretary General to bring a gender perspective to all peacekeeping 
operations and other U.N. programs, and calls for greater funding for 
measures to protect women during armed conflict and rebuild 
institutions that matter to women.
    Plans are already underway to ``celebrate'' the 10th anniversary of 
Resolution 1325 in October 2010, but as noted earlier, the current 
situation hardly warrants celebration. Instead, Secretary General Ban 
Ki-moon and Deputy Secretary General Asha Rose Migiro must act now to 
identify and implement specific reforms and practical steps in the U.N. 
system, Member States and the broader international community to better 
protect women in conflict situations and ensure their participation in 
building peace.
    A first step might be to appoint an advisory panel on Resolution 
1325 of prominent international figures from developing and developed 
countries with past engagement on gender and armed conflict and 
knowledge of the U.N. system. More than a shop-talk or report-writing 
exercise, the advisory panel would develop and help implement 
accountability mechanisms by identifying time-bound goals, proposing 
measurement criteria, assigning responsibility for implementation, and 
defining rewards and sanctions to ensure compliance by individuals and 
agencies within the U.N. system. It would seek to reverse the shameful 
situation in which women fill only three of the Secretary General's 40 
or so posts for country-specific special representatives.
    The panel might also consider charging a single entity, perhaps the 
new office of the Under Secretary General, with overseeing the 
Resolution 1325 agenda; promoting the creation of a permanent Security 
Council working group; establishing a watch-list of countries and 
nonstate actors of concern to be named and shamed into improving their 
records; ensuring periodic reports by the Secretary General to the 
Security Council on the status of Resolution 1325 implementation; and 
enshrining the principle that sanctions can be adopted on governments 
and nonstate actors that abuse or fail to protect for women.
    If these steps seem like a stretch, it is important to remember 
that each of these measures now applies to the protection of children 
in armed conflict under UNSC Resolutions 1612 and 1882
                          american leadership
    Mr. Chairman. The United States must provide leadership on these 
issues, first by ensuring that all its diplomatic and military 
personnel are familiar with and committed to the provisions of UNSC 
Resolutions 1325 and 1820, and have the resources needed to ensure its 
implementation.
    U.N. Ambassador Susan Rice and her team have stepped forward 
impressively on these issues, building on a good work by former 
Ambassador Zalmay Khalilzad. In their future efforts, they should be 
guided by several principles. The United States should insist that the 
mandate for every U.N. peacekeeping mission includes as a priority the 
protection of women and the safeguarding of women peacebuilders, 
including through the provision of personal security, training, and 
stipends. The United States should demand that negotiations led by the 
United Nations include a critical mass of qualified women on all 
sides--beginning at 20 percent--even if it takes quotas to do so.
    Similarly, the United States should prioritize in post-conflict 
reconstruction and donors conferences the rebuilding of social 
structures of particular importance to women, such as reproductive 
health care and girls' education, as well as significant provisions for 
women to attain livelihood security, such as access to and ownership of 
productive assets such as land. All post conflict recovery plans should 
be subjected to gender-impact analysis, and specify the funds dedicated 
to women's needs.
    U.S. support for the rebuilding and reform of armies, police, and 
other security forces should insist on training in gender issues for 
all personnel and require the incorporation of women into those forces, 
in particular so that local women who have been abused will come 
forward with their accusations. The United States could commit to 
providing teams of women military observers to peacekeeping missions 
and cease-fire monitoring teams. The presence of women in these 
missions and teams has been proven to encourage reporting of sexual 
violence and much greater attention to monitoring the problem.
    I would also like to encourage the United States to expand its 
leadership in preventing violence against displaced women, both 
refugees and internally displaced persons. One simple step would have a 
dramatic impact. In order to put a stop once and for all to the rape of 
women and girls during the collection of firewood, the global body for 
humanitarian agencies, the Inter-Agency Standing Committee, recently 
adopted guidance on the provision of cooking fuel in humanitarian 
settings, based in large part on recommendations from the Women's 
Refugee Commission. The United States should mobilize donors to ensure 
that the resources are there to implement these provisions fully, 
starting with the high-risk regions of Sudan, Chad, Eastern Democratic 
Republic of Congo, and the huge Dadaab refugee camp in Kenya.
                     keeping our eyes on the prize
    As we consider these and other funding, institutional and 
administrative changes, we must never lose sight of our real goal. The 
success of our efforts will not be measured by the reports we issue, 
the publicity we generate, or even the money we spend. It will come in 
changing the lives of women on the ground, empowering women to play 
their rightful and vital role in post-conflict governments and 
economies, securing seats for women in peace negotiations, preventing 
armed thugs from abusing women in conditions of displacement, holding 
government security forces and warlords alike accountable for sexual 
violence against women, preventing traffickers from turning women and 
girls into commodities, building strong civil society networks for 
women and ending the stigma of victimization that bedevils women 
leaders.
    No challenge we face as an international community is more 
important than this to creating a safe, secure, and prosperous world 
for women and for men. Thank you.

    The Chairman. Well, no; thank you. I mean, that's very--
again, like General Cammaert, wonderfully important, eloquent 
testimony, and it helps us really establish a wonderful 
baseline here for what ought to be.
    I remember when I was in Darfur not so long ago, this issue 
of the cooking thing came out. I mean, it's just--it's common--
I mean, it's common sense. It just ought to be happening. And I 
would hear these stories about the firewood collection process 
and so forth. So, my hope is we can get these things 
implemented, and I'm so glad we've got somebody there who's 
supposed to focus on it, because that helps. You know, you've 
just got to keep the focus.
    Dr. Gupta, thank you very much for your patience, and 
appreciate your being here today. Thank you.

  STATEMENT OF DR. GEETA RAO GUPTA, PRESIDENT, INTERNATIONAL 
          CENTER FOR RESEARCH ON WOMEN, WASHINGTON, DC

    Dr. Gupta. Thank you, Chairman Kerry.
    The Chairman. Can you push the button, there? That's it.
    Dr. Gupta. Sorry. There you go.
    Thank you very much. Thank you for your----
    The Chairman. Pull the mic a little lower----
    Dr. Gupta [continuing]. Leadership on this issue. And thank 
you, to the members of the committee, for holding this 
important hearing about a massive threat to women's lives and 
livelihoods.
    My testimony today will illustrate the links between 
violence and economics, how violence is not only a gross 
violation of women's human rights and a threat to women's 
health and well-being, but also a barrier to economic 
prosperity of families, communities, and entire nations. 
Further, I want to discuss how women's economic empowerment--
that is, giving women opportunities to earn an income and 
strengthen the contributions that they make--as well as working 
with men and boys, can help to eliminate violence against 
women.
    The United Nations estimates that one in three women around 
the world will be beaten, raped, or otherwise abused during her 
lifetime. One in four will be physically or sexually abused 
while she is pregnant. Violence against women persists in every 
country in the world, and, in many countries, it exists in 
epidemic proportions. Violence finds a woman in her home, in 
the field, gathering water, in times of conflict, and in times 
of peace. It comes at the hands of a stranger, a sibling, or a 
spouse, and it also comes in the form of marriage that occurs 
when a child is too young. We know all too well that crimes 
against women also are committed in the name of honor.
    We pay a high price for violence against women. The cost of 
a single incident of violence has a multiplier effect, from the 
emotional and physical toll it takes on the survivor, to an 
employer's loss of labor because she cannot work, a police 
officer's response, a doctor's care, a small health clinic's 
limited resources, a judge or lawyer's time. These costs add 
up, undermining development and foreign-assistance goals.
    For example, households in Uganda incur an average cost of 
$5 per incident of violence. This is a substantial sum when you 
consider that Ugandans, on average, earn only $340 a year.
    A study in Nicaragua showed that women who had been beaten 
by their husbands were twice as likely to require surgery or 
hospitalization than those who were not abused. Their children 
were more likely to be sick or malnourished, and they were 
three times more likely to die before the age of 5.
    Numerous studies in Africa and elsewhere show that sexual 
violence, both within schools and at home, is a major reason 
for girls dropping out early, undermining U.S. foreign-
assistance goals of educating girls.
    While the numbers and the reality they represent are 
horrifying, change is possible. Around the world, women and men 
are carrying out innovative programs to end violence against 
women. And I'd like to share a few examples with you.
    Many women are not able to escape violent situations or 
access protection because they lack financial resources. When 
microfinance is implemented in combination with other community 
programs, it can actually prevent violence.
    A well-known South African program provided women 
entrepreneurs with much-needed credit, and provided community 
members with training on women's rights and violence 
prevention. The program showed a remarkable 55-percent 
reduction in violence in only 2 years.
    Giving women the right to own property can be both 
financially and socially empowering. Research in India found 
that 49 percent of women who did not own property reported 
violence, as compared to only 7 percent of women who owned 
property. We must invest more in women's legal rights and 
access to economic assets for this reason.
    However, providing women with economic opportunities and 
assets is only one part of the solution. We must also engage 
boys and men to help change the social norms that suggest that 
such violence is normal or acceptable, and to stop the violence 
that they see in their homes or communities.
    An innovative example of this is the Bell Bajeao! campaign, 
led by an Indian organization called Breakthrough. This 
campaign, which in Hindi means ``Ring the bell!'' uses 
multimedia messaging and leadership training to encourage men 
and boys to speak out and to act to end domestic violence in 
their communities.
    Other initiatives work with men and boys in sports leagues, 
or with young boys and girls in schools, encouraging them to 
treat each other with respect and dignity. Programs such as 
these urgently need to be replicated and scaled up.
    So, drawing from what the evidence shows, I now offer three 
recommendations for U.S. foreign assistance, to make the 
dollars that we spend on development go further.
    The Chairman. Dr. Gupta, I hate to do this, can I--the 
record will not show the interruption. So, I apologize for 
that, but I need to go meet with the President. I apologize for 
that.
    Senator Kaufman is going to close out the hearing, and he 
will ask some of the questions that I wanted to ask.
    I'm going to leave the record open for a few days. I think 
we'll leave the record open until Monday, because I want people 
to have a chance to submit some questions in writing.
    I was particularly struck, Ambassador Steinberg, by your 
opening comments, the first three or four sentences, where you 
talked about the difference that it would make, and the more--
the capacity for more peace, the capacity for outcomes are 
different. I really want you, if you would, to extrapolate on 
that. If I stayed here, I'd have asked you some questions 
about, How do you show that? How do you document that? What can 
we do to impress people about that? How do we, you know, build 
some commonsense approaches around that reality? Because that's 
the dramatic--I mean, that really is a center organizational 
piece, I thought.
    And, all of you--I mean, General, your testimony, 
everybody's testimony, was so on point. And I regret not being 
able--just--the votes today, which we can never predict around 
here, just destroy schedules, unfortunately.
    So, I apologize profusely, but you are in great hands. This 
man worked with Senator Biden for over 30 years, many of you 
have worked with him. Part of the reasons we have a Violence 
Against Women Act is Senator Kaufman's leadership. Nobody knows 
this better, so you're in good hands.
    So, I appreciate it. And again, my apologies.
    Thank you, Senator Kaufman. Thanks.
    Senator Kaufman [presiding]. And pick up, if you would, and 
proceed.
    Dr. Gupta. OK. So, I want to present to you three 
recommendations.
    The first is that we need to build and sustain 
comprehensive multisector strategies to end violence against 
women through U.S.-funded foreign-assistance efforts in 
multiple sectors, including economic development, justice and 
governance, education, public health, and community 
development. In short, there is no single magic bullet. We need 
multiple strategies, implemented simultaneously, to end the 
acceptability of violence against women and to protect women's 
rights.
    Second, we need data collection and impact evaluation. The 
only way we know that programs work is through careful 
collection of data about outcomes and a thorough evaluation of 
their impact. I would like to acknowledge the leadership of 
many members of this committee, including Senators Kerry, 
Lugar, Menendez, and Corker, on the Foreign Assistance 
Revitalization and Accountability Act, a bill that places a 
high premium on research, data collection, and evaluation. Any 
bill that comes through this committee must include strong 
language to collect and systematize data from programs that 
deal with violence against women.
    And my third recommendation is that, for all of this, 
robust funding is imperative. The enormity of the problem at 
hand demands a proportional response through financial 
investment. A significant investment from the United States 
will allow proven programs to be scaled up, new programs and 
services to be introduced, and will signal to other nations 
that they, too, can and must act to eradicate violence against 
women.
    In conclusion, then, you have the opportunity to bring 
about enormous change on an issue that is sapping the economic 
potential of more than half of the population of this world, 
and thus, half of the labor force of this world. Women are the 
vast majority of the world's poor. They are the least educated. 
They are the least able to exercise their human rights. But 
evidence shows that, despite the obstacles they face, women and 
girls are powerful agents of change. They can and will be the 
catalysts for economic recovery and leaders of a more powerful, 
peaceful, and just world, if only given a chance. If we want 
women and girls to unleash the full potential of their human 
capital, now is the time to put an end to the violence that 
undermines that.
    The center that I lead, the International Center for 
Research on Women, stands ready to support this committee as 
you address these issues through particular legislation, 
especially the International Violence Against Women Act.
    Thank you for your time.
    [The prepared statement of Dr. Gupta follows:]

Prepared Statement of Geeta Rao Gupta, Ph.D., President, International 
          Center for Research on Women (ICRW), Washington, DC

    Chairman Kerry, Ranking Member Lugar, and honorable members of the 
committee, thank you for holding this hearing on such an important 
topic. Violence against women occurs in epidemic proportions in many 
countries around the world. It cuts across socioeconomic, religious, 
and ethnic groups, as well as geographic areas.\1\ The United Nations 
estimates that one in three women around the world will be beaten, 
raped, or otherwise abused during her lifetime.\2\ One in four women 
will be physically or sexually abused while she is pregnant.\3\ All 
over the world, women's organizations, and many men's organizations, 
are rallying around the issue of ending violence. Congress can take 
bold steps to help these organizations be more effective in their own 
internal programming and advocacy. On behalf of these women and men 
around the world, thank you for considering the steps that the United 
States can take to reduce violence against women--it is both the right 
thing to do and the smart thing to do.
---------------------------------------------------------------------------
    \1\ United Nations Millennium Project. 2005. ``Taking Action: 
Achieving Gender Equality and Empowering Women.''
    \2\ United Nations Development Fund for Women. 2003. ``Not A Minute 
More: Ending Violence Against Women.'' Retrieved on December 4, 2008, 
from http://www.unifem.org/resources/item_detail.php?ProductID=7.
    \3\ Garcia-Moreno et al. 2005. ``WHO Multi-Country Study on Women's 
Health and Domestic Violence Against Women.'' World Health 
Organization. Retrieved on December 4, 2008, from http://www.who.int/
gender/violence/who_multicountry_study/en/.
---------------------------------------------------------------------------
    I come to you today as president of the International Center for 
Research on Women (ICRW). ICRW tackles the complexities of the world's 
most pressing problems--poverty, hunger, and disease--by demonstrating 
that a focus on women is necessary for lasting social and economic 
change. Research is our work, but ICRW is different from other think 
tanks. We are a ``do-tank'' that translates research findings into 
concrete steps that program designers, donors, and policymakers can 
take. We develop practical solutions that achieve greater impact, 
ensure efficient use of resources, and most importantly, empower women 
to change their own lives and their communities for the better.
    The purpose of my testimony is to show the links between violence 
and economic development--how violence is not only a gross violation of 
human rights and a threat to a woman's health and well-being, but also 
a barrier to the economic development of families and communities. 
Furthermore, I want to discuss how economic empowerment--including 
working with men and boys--can be part of the solution to violence 
against women.
                   economic consequences of violence
    Violence against women has many direct consequences, including 
physical injury and emotional pain. A less immediate, yet equally 
damaging, consequence of violence is the economic injury to the 
individuals and households where violence occurs. The economic costs of 
violence against women are significant--to survivors themselves, to 
their family members and to their communities.
Costs to Individuals and Households
    Families endure the direct financial costs of violence due to the 
expense of services used to treat surviors and apprehend and prosecute 
perpetrators. ICRW conducted a study of households in Uganda and found 
that each household incurs an average cost of $5 per incidence of 
violence. This is a substantial sum of money, considering that the 
average per capita income in Uganda is only $340.\4\
---------------------------------------------------------------------------
    \4\ ICRW. 2009. ``Intimate Partner Violence: High Costs to 
Households and Communities.''
---------------------------------------------------------------------------
    Individuals can also face broader economic effects of violence, 
including increased absenteeism from work; decreased labor market 
participation; reduced productivity; and lower earnings, investment and 
savings. A recent ICRW study shows that almost 10 percent of women who 
are victims of violence take time away from paid work, an average of 11 
days annually.\5\ Men who are perpetrators of violence also tend to 
miss work. After a particularly violent episode, men may flee their 
home and town for several days, missing work and losing income in the 
process. Both circumstances amount to less money for food, clothing, 
medical care, and school fees.
---------------------------------------------------------------------------
    \5\ Ibid.
---------------------------------------------------------------------------
    Violence against women also affects their health, which in turn 
impacts their productivity and ability to earn an income. A World Bank 
study estimated that annual rates of rape and domestic violence 
translated into 9 million years of disability-adjusted life years 
(``disability-adjusted life year'' is the measure of the loss of 1 year 
of full health, whether due to illness or premature death) lost, 
including premature mortality as well as disability and illness.\6\
---------------------------------------------------------------------------
    \6\ United Nations Millennium Project. 2005.
---------------------------------------------------------------------------
    Violence against women has intergenerational impacts, and is often 
correlated with disruption in schooling for the children of survivors. 
A study in Nicaragua showed that 63 percent of children of female 
survivors of violence must repeat a grade in school. The same study 
showed that children of female survivors left school an average of 4 
years before other children. Such delays in the educational development 
of children can have long-lasting economic consequences for individuals 
and households.\7\
---------------------------------------------------------------------------
    \7\ Ibid.
---------------------------------------------------------------------------
Costs to Communities and Nations
    Beyond the home, violence imposes a great monetary cost on the 
community. Valuable community resources must be spent on health 
services, court costs, and social services to prevent violence, treat 
victims, and apprehend and prosecute perpetrators. These costs are 
well-documented in industrialized countries such as Canada, where the 
annual monetary cost of violence against women has been estimated at 
Can$684 million in the criminal justice system and Can$187 million for 
policy.\8\ However, these costs are also shown in other countries, such 
as Uganda, where hospitals reported spending about $1.2 million 
annually to treat women victims of violence.\9\
---------------------------------------------------------------------------
    \8\ Ibid.
    \9\ ICRW. 2009.
---------------------------------------------------------------------------
    Countries, like households, also face economic multiplier effects 
of violence as high rates of violence against women diminish the 
potential economic value of nearly half the workforce. Studies in Chile 
show that domestic violence caused women to lose $1.56 billion in 1996, 
or 2 percent of GDP. In Nicaragua, violence against women cost 1.6 
percent of the GDP, according to the same study. In both countries 
survivors of violence earned far less than other women, controlling for 
a number of factors likely to affect earnings.\10\
---------------------------------------------------------------------------
    \10\ United Nations Millennium Project. 2005.
---------------------------------------------------------------------------
             economic empowerment as a solution to violence
    Effectively reducing violence against women requires an integrated 
approach that involves international and national lawmakers as well as 
community leaders, families, and individual men and women. This 
integrated approach, recognized by the World Bank and other global 
leaders, aims to increase women's access to judicial and support 
services as well as to prevent violence from occurring. Though much 
work remains, improvements have been made to the laws and policies to 
protect women and girls from violence and to facilitate women's access 
to necessary support services.
    However, we are not doing enough to prevent violence from occurring 
in the first place. We can prevent violence. And one of the best 
strategies to do so is by economic empowerment. By economically 
empowering women, we can increase their status within the household and 
the community and decrease their chances of suffering violence. We can 
also engage men and boys to address the prevailing community norms that 
might encourage violence. Without examining these factors and 
implementing preventative strategies, we will never see a sustainable 
reduction in violence.
    In my work with ICRW, I have met countless working women--including 
market hawkers, farmers, and managers of small businesses. They 
demonstrate incredible ingenuity and resourcefulness in finding ways to 
earn an income and provide for their families. However, they often lack 
access to the necessary tools and resources to increase their economic 
returns. For example, I met a market woman in India, who traveled, on 
foot, every day from her tiny village--carrying an infant on her back 
and loaded down by produce to sell in the local market. This journey 
took hours, was physically exhausting, and barely earned her a 
sufficient income to survive and feed her children. Without a decent 
road or transportation, without access to business training or capital, 
without childcare options for her children, her options for a better 
income were scarce or nonexistent. Economically empowering women means 
giving opportunities where there are none and strengthening the 
contributions women already make to their communities by ensuring they 
are paid appropriately for their labor.
    Developing strategies that lead to a better economic standing for 
women can ultimately help thwart violence. The violence they face is 
rooted in inequitable power dynamics within a household--men own the 
land, the home, all of the productive assets and control the income, 
even when women are the source of that income. Increasing a woman's 
economic independence can provide her the leverage to negotiate 
protection or leave a violent relationship. Additionally, women are 
more likely than men to spend their income on the well-being of their 
families, including more nutritious foods, school fees for children, 
and health care.
    One successful mechanism that is proven to empower women and reduce 
violence is microfinance. Microfinance consists of small loans usually 
given to poor people--mostly women--with little or no collateral to 
help them start or expand small businesses. Statistics show that women 
who received loans paid them back at rates close to 99 percent.
    The benefits of these economic activities extend beyond the 
participants to their families and communities. Families can afford 
three meals a day rather than one. They can pay school fees and buy 
uniforms to send their children to school. They can expand their 
businesses and hire other community members as employees.
    When microfinance is distributed in combination with other 
community programs, it can actually prevent violence. This is most 
clearly demonstrated by the Intervention with MicroFinance for AIDS and 
Gender Equity Project (IMAGE Project) in South Africa. Through the 
Small Enterprise Foundation, the program distributed small loans to 
women to start or expand small businesses and generate household 
income.\11\ The program also provided training and skills-building 
sessions on HIV prevention, gender norms, cultural beliefs, 
communication and intimate partner violence. A random, controlled trial 
found that, 2 years after completing the program, participants reported 
a 55-percent reduction in incidence of violence by their intimate 
partners in the previous 12 months than did members of a control group. 
Women also reported higher confidence, autonomy in decisionmaking, 
better relationships with their partners and other household members, 
and improved communication skills.\12\
---------------------------------------------------------------------------
    \11\ Small Enterprise Foundation. 2009. ``Economic Evaluation of a 
Combined Microfinance and Gender Training Intervention for the 
Prevention of Intimate Partner Violence in Rural South Africa.'' 
Retrieved on Sept. 28, 2009, from http://www.sef.co.za/files/
01%20%20Jan%20
IMAGE%20Costing%20Study%20Working%20paper%202009.pdf.
    \12\ World Health Organization (WHO). 2009. ``Violence Prevention--
The Evidence: Promoting Gender Equality to Prevent Violence Against 
Women.'' Retrieved on Sept. 28, 2009, from: http://www.who.int/
violence_injury_prevention/violence/gender.pdf.
---------------------------------------------------------------------------
    In addition to access to financial services, women and communities 
benefit from increased access to land and property rights. They are not 
only able to reap more financial returns from their efforts; the 
ability to own and inherit property is clearly linked to decreased 
violence and increased security for women. Research in India found that 
49 percent of women with no property reported violence, compared to 
only 7 percent of women who owned property, even while controlling for 
factors such as economic status, education, employment and other 
variables.\13\
---------------------------------------------------------------------------
    \13\ Panda, P. 2002. ``Rights-Based Strategies in the Prevention of 
Domestic Violence.'' ICRW Working Paper.
---------------------------------------------------------------------------
    Groundbreaking work in Peru during the 1990s shows how land titling 
can empower and benefit women. The government set about to create land 
titles, and mandated that married couples receive joint land titles. 
More than 50 percent of the beneficiaries of this policy were women, 
who then gained access to government-provided credit, and saw an 
improvement of employment prospects.\14\ If the data from India can be 
generalized, then we can assume that the land titling effort in Peru 
may have led to a decrease in violence against women.
---------------------------------------------------------------------------
    \14\ ICRW. 2009. ``Innovation for Women's Empowerment and Gender 
Equality.''
---------------------------------------------------------------------------
    However, I must also caution that there is evidence from Bangladesh 
and other parts of the world that programs increasing a woman's access 
to economic resources can put her at risk of increased violence. This 
is particularly true in settings where a woman's status is low, because 
increasing her income can lead to greater conflict within the 
family.\15\ One of the ways to mitigate the risk of this kind of 
backlash by men is to engage them in economic development programs from 
the start.
---------------------------------------------------------------------------
    \15\ Koenig, M & Hossain MB et al. 1999, ``Individual and 
Community-Level Determinants of Domestic Violence in Rural 
Bangladesh.'' Hopkins Population Center Paper on Population. Baltimore, 
Johns Hopkins School Public Health, Department of Population and Family 
Health Sciences: 32.
---------------------------------------------------------------------------
    During the 1980s and 1990s, men were viewed primarily as 
perpetrators, rather than potential partners in violence prevention. 
Accordingly, most programs focused on teaching men how to deal with 
anger and conflict without resorting to violence. Most batterers' 
treatment programs are run in coordination with the criminal justice 
system, with attendance mandated by the court (as an alternative to a 
jail sentence). International research has found, however, that these 
programs are not as effective in reducing male violence against women 
as prevention-based programs because they do not address underlying 
causes. This is particularly true in a setting where violence against 
women is culturally accepted.\16\
---------------------------------------------------------------------------
    \16\ Morrison, A & Ellsberg M et al. 2007, ``Addressing Gender-
Based Violence: A Critical Review of Interventions,'' The World Bank 
Research Observer 22(1): 25-51.
---------------------------------------------------------------------------
    Today, there are many successful programs that work with men and 
boys to reduce violence. Programs that target men are showing promising 
results--a recent review of 57 evaluated interventions with boys and 
men found that nearly two-thirds showed evidence of behavior change. 
The programs that dealt with questions of masculinity and ``what it 
means to be a man'' were found to be most effective.\17\ Rather than 
defining masculinity as violent and aggressive, the messages promoted 
through these programs are that caretaking and compassion are traits of 
``real men.''
---------------------------------------------------------------------------
    \17\ Barker, G., Ricardo, C. and Nascimento, M. (2007). Engaging 
men and boys in changing gender-based inequity in health: Evidence from 
programme interventions. Geneva: World Health Organization.
---------------------------------------------------------------------------
    The key now is to scale up these small programs, and to increase 
our efforts to reach men and boys in schools, the workplace, sporting 
events, community centers, and religious institutions.
    The needs are particularly urgent in conflict and post-conflict 
settings. A recent meeting organized by ICRW and the World Bank called 
attention to the need not only to support survivors of violence, but 
also to hold perpetrators accountable for their actions, and to carry 
out prevention activities with men and boys who have witnessed or been 
involved in violence. While those men who use violence in conflict 
settings, including the brutal violence being carried out, need to be 
held accountable, it is important to acknowledge that there are many 
men who abhor such violence and could be engaged as agents of change if 
funding for programming were expanded.
                          recommended actions
    The sheer scale and complexity of violence against women means that 
there is no single solution to the problem. The International Violence 
Against Women Act (IVAWA), introduced in 2007 by then-Senator Biden and 
Senator Lugar, captures best practices and lessons learned from more 
than 40 years of development. This bill, if reintroduced by this 
Congress, should be a strong statement by the United States that 
violence against women is unacceptable. Specifically, any legislation 
to combat violence against women must include the following components:
    1. Comprehensive, multisector strategies. Strategies to combat 
violence against women must include:

  <bullet> Economically empowering women;
  <bullet> Legal and judicial systems that strengthens and enforces 
        laws to protect women, while encouraging women to be active and 
        equal partners in society without fear of repression or 
        violence;
  <bullet> Health sectors that provide services to survivors of 
        violence;
  <bullet> Education systems that work to ensure girls going to and 
        from school are safe; and
  <bullet> Humanitarian efforts that recognize and prioritize the needs 
        and and concerns of women.

    All programs should, where possible, engage men and boys as 
partners.
    One issue in particular that must be addressed is the issue of 
child marriage. Child brides are especially susceptible to violence, 
facing three times the risk of abuse compared to women who marry after 
the age of 18. Forcing children to marry is a violent act in and of 
itself, robbing girls of their education and freedom to decide when and 
who to wed. Child brides also tend to come from poor households and 
continue the cycle of poverty. There are programs that have raised the 
age of marriage in communities in relatively short periods of time. 
This committee should support and pass S. 987, the International 
Protecting Girls by Preventing Child Marriage Act.
    2. Data collection and impact evaluation. As the president of a 
research organization, I know firsthand the importance of data 
collection, monitoring, and impact evaluation. The only way to know 
that programs work is through the careful collection of inputs, 
outcomes, and the evidence of their impact. Continued innovation and 
research into reducing violence against women is the best way to come 
up with long-term and sustainable solutions. Any bill that comes 
through this committee must include strong language to collect and 
systematize data from programs that deal with violence against women.
    Members of this committee, led by Senators Kerry, Lugar, Menendez, 
and Corker, recently introduced the Foreign Assistance Revitalization 
and Accountability Act (S. 1524), a bill that places a high premium on 
research, data collection and evaluation. I applaud this committee for 
the leadership you have shown thus far, and encourage you to mandate 
and fund the evaluation of programs that address violence against 
women.
    3. Robust funding. Successful programs require adequate resources. 
Evidence points to many programs that work--through microcredit, 
through land titling, through engaging men and boys, and through many 
other multipronged efforts. Many programs are vastly successful on a 
small scale, and are in a perfect position to be scaled up on a 
regional or national scale, yet lack adequate resources. Any effort to 
combat violence against women in a comprehensive manner must include 
funding for programs on the ground, research and data collection, and 
humanitarian interventions during conflict and disaster situations.
    A substantial portion of IVAWA funds should go to strengthen 
women's organizations based in developing countries, because those on 
the ground know what is needed, and can most effectively use the funds.
    Funding for violence programs should also be viewed as an 
investment. Increasingly, business leaders from all parts of society 
are realizing what ICRW has been proving for more than 30 years--that 
investing in women pays the biggest dividend. Why else would Fortune 
500 companies like ExxonMobil, the GAP, and Goldman Sachs spend time, 
energy, and capital investing in women around the world? Partly for 
philanthropic reasons, but also because they know that it is worth the 
investment. So I encourage Congress to follow the example of the 
marketplace and invest in women to create prosperity and security--for 
women around the world and for the United States.
                               conclusion
    This august body deals with many of the most pressing needs of the 
day--from climate change to health care to threats from rogue states to 
an economy tinkering on the edge. And through this hearing today, you 
add violence against women to this list. You face tough decisions day 
in and day out, and you have the opportunity to bring about enormous 
change to this country and around the world. Oftentimes there is debate 
about which is the best way to move forward.
    But right here, right now, there is no debate. The lines are clear. 
By not acting, by maintaining the status quo, millions of women will 
continue to face violence every day. And their enormous potential will 
continue to be suppressed by the yoke of violence.
    But if you refuse to acquiesce to the notion that violence against 
women is inevitable or acceptable, and you instead choose to put your 
moral and political authority behind the dignity and rights of women, 
you can help create a cycle of prosperity and peace. With your help, 
women and girls can be the catalyst for the next great development 
innovation, the drivers of economic recovery, and the leaders of a more 
peaceful and just world.
    ICRW stands ready to support your efforts. Thank you for your time 
and I look forward to answering your questions.

    Senator Kaufman. Thank you very much.
    Miss Soler.

STATEMENT OF ESTA SOLER, PRESIDENT AND FOUNDER, FAMILY VIOLENCE 
           PREVENTION FUND (FVPF), SAN FRANCISCO, CA

    Ms. Soler. Thank you. Thank you, Chairman Kerry, and thank 
you, Senator Kaufman, for all your great work on the Violence 
Against Women Act.
    It is my great honor to join you today to discuss one of 
the most compelling causes of our time: ending violence against 
women and girls. This is also a critical moment because we have 
an unprecedented worldwide call to end violence against women 
and girls. The world does not expect the United States to solve 
this problem alone, but it does see our leadership as essential 
to changing course.
    Who are the people demanding change? They are top military 
leaders and diplomats. They are the World Health Organization 
and U.N. aids. They are leaders of nations, large and small, 
and nongovernmental organizations, all of whom recognize that 
investing in programs that improve the safety of women and 
girls and their ability to participate in civic life offers the 
greatest hope for peace and prosperity in our time.
    This movement is also driven by the voices of those who 
risk their lives and safety every day to demand their basic 
civil rights. I am talking about a 10-year-old girl, who 
refuses to be married to a man 40 years her senior to settle a 
family debt; the teen who musters the courage to say, ``I was 
raped,'' even when family and community stand against her; the 
father, who goes without food so his daughter can attend 
school, driven by hope that education and economic opportunity 
will protect her from a violent husband, a rampaging solider, 
and the sex traffickers who prey on those without prospects for 
a better life.
    I share these examples because we must remember that 
courageous women, girls, and men, and remarkable 
nongovernmental organizations, are doing heroic work to stop 
this violence, and that real change will only come when we 
stand together, governments and individuals, women and men, to 
say, ``No more.''
    These problems are big, but they are solvable. And that's 
especially the case if we engage men in the work to end 
violence against women. At the Family Violence Prevention Fund, 
we began focusing on this a decade ago. We created Coaching 
Boys into Men, with men like M.L. Carr, a program which invites 
fathers, uncles, coaches, and other men to teach boys that 
violence is wrong. It has significantly increased the number of 
men who talk to boys about violence, and it is now being used 
around the world. This is the kind of proven programs that 
Americans overwhelmingly support.
    We have been working with Lake Research, along with Women 
Thrive Worldwide, to explore public views about this issue. 
Americans care deeply about ending violence against women and 
girls globally. Three in five voters say addressing global 
violence should be one of the top priorities for the U.S. 
Government. One in four say it should be the top priority. 
Voters also told us that they strongly support the 
International Violence Against Women Act, which would make 
stopping violence against women and girls a priority in 
American diplomacy and foreign assistance. Seventy-two percent 
of voters say they would support I-VAWA, even after being told 
it might cost as much as $2 million a year.
    Senators Lugar and Kerry, Senator Kaufman, we are so 
grateful that you are here today and about to introduce this 
bill. Senator Lugar, we know that you were there from the 
beginning with Vice President Biden, and, Chairman Kerry, we 
thank you for making it a priority.
    The International Violence Against Women Act is 
groundbreaking legislation. As you make final revisions to the 
language, I ask you to consider these suggestions. We need an 
office within the State Department that is responsible for 
strategy and implementation. We need to fund implementation of 
new programs through the State Department and USAID. We need an 
intensive effort directed to 10 to 15 focus countries. We need 
to target support for the protection of women and girls in 
humanitarian crises. We need to invest in local organizations 
and local governments, where appropriate. And we need to make a 
substantial investment in solving this worldwide tragedy.
    The days of piecemeal solutions must end. No longer can we 
implement a successful program in a few regions for a few years 
and end support just as it begins to show results. It's time to 
put forward a bold and transformative initiative that 
concentrates our resources on programs that work.
    Much of the support, here in Congress, to address violence 
against women emanates from high-profile emergencies like the 
crises in Darfur and the Democratic Republic of Congo. It is a 
commendable impulse to respond to these emergencies, but 
violence against women is an emergency every day. We need a 
response that is sustained and durable enough to address not 
just today's emergencies, but those that lie ahead. We need 
this Congress to pass, and to fund, the International Violence 
Against Women Act.
    Thank you.
    [The prepared statement of Ms. Soler follows:]

    Prepared Statement of Esta Soler, President and Founder, Family 
              Violence Prevention Fund, San Francisco, CA

    Thank you, Chairman Kerry, Ranking Member Lugar, and members of 
this committee. It is my great honor to join you today to discuss one 
of the most compelling causes of our time: ending violence against 
women and girls.
    This hearing could not come at a more opportune moment. As you 
know, Secretary of State Hillary Rodham Clinton chaired yesterday's 
United Nations Security Council Meeting, introducing a resolution to 
provide greater protections to women during times of conflict. This 
resolution responds directly to the horrific sexual and physical 
violence being committed against women, often as a tool of war and 
conflict, around the world today.
    Senator Kerry, you are no stranger to the cruelties of armed 
conflict. I hope you agree that it's time to acknowledge that these 
horrendous crimes are nothing less than a war on the next generation, 
and a tool for the permanent destruction of communities and ultimately 
nations. The devastation they cause will be felt long after the 
fighting has ended.
    This is also a critical moment because we have an unprecedented 
worldwide call to end this violence. The world does not expect the 
United States to solve this problem alone, but it does see our 
leadership as essential to changing course. Who are the people 
demanding change? They are the Secretary General of the United Nations, 
top military leaders and diplomats. They are the World Health 
Organization and UNAIDS. They are leaders of nations large and small, 
and nongovernmental organizations, all of whom recognize that gender 
inequality, and violence against women and girls, are among the 
greatest barriers to global health and security. They recognize that 
investing in programs that improve the safety of women and girls, and 
their ability to participate in civic life, offers the greatest hope 
for peace and prosperity in our time.
    This movement is also driven by the voices of those who risk their 
safety every day to demand basic human rights. I am talking about the 
girl, age 10, who refuses to be married to a man 40 years her senior, 
to settle a family debt. The teen who musters the courage to say, ``I 
was raped''--even when family and community stand against her. The 
father who goes without food so his daughter can attend school, driven 
by hope that education and economic opportunity will protect her from a 
violent husband, a rampaging soldier, and the sex traffickers who prey 
on those without prospects for a better life.
    I share these examples because we must remember that courageous 
women, girls, and men, and remarkable nongovernmental organizations, 
are doing heroic work to stop this violence--and that real change will 
only come when we stand together--governments and individuals, women 
and men--to say ``no more.''
    Often when I talk about the debilitating epidemic of global 
violence against women and girls, someone will say that it's a 
particular culture or region or religion. They are saying that it's 
about ``them,'' not us. That attitude leads to resignation, 
hopelessness . . . and inaction. We have to remind people that, all 
over the world, mothers and fathers love their daughters and their 
sons, and want for them what we want for our children: A life during 
which they can learn and grow, thrive and prosper, without fear, 
degradation, and the trauma associated with violence.
    I also want to talk specifically about the role men can play in 
ending violence against women. At the Family Violence Prevention Fund, 
we began intentionally focusing on the role men can play in this work 
more than a decade ago. We asked men about their stake in the issue, 
and what they were willing to do to end the violence. We explored who 
helped them develop their attitudes and beliefs. Then we built on that 
research to create our Founding Fathers campaign through which, each 
Father's Day, men across the Nation rededicate themselves to teaching 
the next generation that violence against women and girls is wrong. 
Founding Fathers include people like M.L. Carr, former all-star with 
your Boston Celtics; Ted Waitt, founder of Gateway Computer; Terry 
Lundgren, Chairman, President, and CEO of Macy's; and hundreds of 
others.
    Those lessons also led us to create Coaching Boys Into Men in 2002. 
It invites fathers, uncles, teachers, coaches, and other men to teach 
the next generation that violence is always wrong. It has changed men's 
behavior in the United States, significantly increasing the number of 
fathers, and men, who talk to boys about violence. Now we are adapting 
those strategies overseas. We are proud that, with support from the 
Nike and NoVo Foundations and in partnership with the International 
Center on Research on Women, we are introducing Coaching Boys Into Men 
in India, where cricket coaches and players are helping educate boys 
about the need to treat girls with respect. When messages come from 
popular, respected coaches and players, boys listen. We also are 
working with UNICEF to adapt Coaching Boys Into Men for South Africa 
and link with the upcoming World Cup.
    These are the kind of proven programs Americans support. Recently 
we have been working with Lake Research, along with Women Thrive 
Worldwide, to explore voters' attitudes about violence against women 
and girls globally. Americans care deeply about this issue. Three in 
five voters say addressing global violence should be one of the top 
priorities for the U.S. Government. One in four says it should be the 
top priority. Reducing this violence matters to voters, even when 
compared to other priorities like promoting democracy and trade, 
fighting corruption abroad, and reconstructing Iraq and Afghanistan.
    Voters also told us they strongly support the International 
Violence Against Women Act--known as I-VAWA. This legislation would 
make stopping violence against women and girls a priority in American 
diplomacy and foreign aid. Seventy-two percent of voters say they 
support I-VAWA, even after being told it might cost as much as $200 
million per year.
    Senators Lugar and Kerry, we are so grateful that you are about to 
reintroduce this bill. Senator Lugar, you were there from the 
beginning, introducing it last year in partnership with now-Vice 
President Biden. Chairman Kerry, we thank you for making it a priority. 
I know you both agree that its passage should be among the high 
priorities for this Congress.
    The International Violence Against Women Act is groundbreaking 
legislation that would have an immediate and direct impact in saving 
the lives of women and girls around the world. As you make final 
revisions to the language, I ask you to consider these suggestions:

--To be successful we need an office within the State Department that 
    is responsible for developing a compreshensive strategy and 
    coordinating implementation, and is accountable to you.
--Stopping violence against women and girls must be a diplomatic 
    priority and a foreign assistance priority. The State Department 
    needs the authority and support to coordinate our work and USAID 
    needs funding to implement programs.
--Our approach must be holistic. We recommend beginning with 
    comprehensive programs in 10-20 countries that address violence in 
    a coordinated way, through legal and health sector reform, by 
    changing social norms and attitudes that condone rape and abuse, 
    and improving education and economic opportunities for women and 
    girls.
--A portion of the funding must go to support overseas women's 
    organizations to develop their own capacity, and we must provide 
    targeted support for protection of women and girls in humanitarian 
    crises.
--This will require resources. We are asking for a substantial 
    investment because this is a worldwide problem in need of a global 
    solution. Stopping violence against women and girls and promoting 
    their full participation in society is not just an end in itself. 
    It is critical to achieving our development goals, from fighting 
    HIV/AIDS to reducing poverty, and it is the essential missing 
    element in our efforts to promote civil society and guarantee our 
    own security.

    Much of the support here in Congress to address violence against 
women emanates from high-profile emergencies like the crises in Darfur 
and the Democratic Republic of Congo. It's a commendable impulse to 
respond to emergencies, but violence against women and girls is an 
emergency every day. We need a response that is sustained and durable 
enough to address not just today's emergencies, but those that lie 
ahead. The days of piecemeal solutions must end. It is time for a bold 
and transformative piece of legislation. We need this Congress to 
pass--and fund--the International Violence Against Women Act.

    Senator Kaufman. Thank you.
    Dr. Gupta and Ms. Soler gave some ideas for the 
International Violence Against Women Act. Ambassador Steinberg, 
General Cammaert, do you have any suggestions on things that 
you think should be in the International Violence Against Women 
Act?
    Ambassador Steinberg. Thank you, Mr. Senator.
    Absolutely. I'm concerned that, in much of the 
international effort within the United Nations, but also within 
the United States, there is an absence of accountability 
mechanisms, an absence of measurement, and an absence of time-
bound goals. It is all very well to talk about process and to 
talk about resources allocation, but the real question is, Are 
we having an impact on the ground? Are women in Eastern Congo 
safer? Can that woman protest in the streets of Guinea without 
being raped? Can girls return to school in Afghanistan?
    And so, I would very strongly urge accountability 
mechanisms to be put in there that relate to time-bound goals 
in the area of reducing violence and enhancing the 
participation of women in peace processes.
    I also wanted just briefly to say that, as we talk about 
sexual violence against women, it is part and parcel of the 
question of women's empowerment. We heard about the statistics 
regarding the reduction in violence against women when they're 
economically powered. It is the exact same phenomenon when they 
are empowered in political environments, as well as social 
environments. And that's an area we don't focus enough on.
    Within most of the countries that are impacted by violence, 
there are quotas that promote women's participation in 
political life, as well as peace processes. In fact, more 
countries globally have such quotas than don't. And, I think it 
is imperative, especially for the United Nations, but also for 
the United States, to encourage that participation.
    Senator Kaufman. Thank you.
    General, do you have----
    General Cammaert. Three points, if I may.
    The first one is to have a stronger focus on the 
participation of female military and police. The United States 
is--has Armed Forces--and I think they're No. 1 in the world 
with most female officers in their ranks. And it would be 
extremely helpful if female officers could be part of a U.N. 
peacekeeping operation, joining the joint protection teams to 
reach out to the local population--in particular, to the women 
and girls; because they are not talking to males, but they're 
talking to females.
    Second is training of the new Congolese Army, for instance, 
or new armies of other failed states where a U.N. peacekeeping 
operation is in operation, to make sure that they understand 
what sexual violence against women and girls means. And they do 
not understand at this moment.
    The third point is the training of peacekeepers, which is 
extremely important, because people from the highlands of the 
Himalayas or the lowlands of the Netherlands arrive suddenly in 
Ngungu, in the eastern part of the Congo, and then face a 
situation, during a night patrol led by a young corporal, and 
then face a 13-year-old girl being gang-raped by six FARDC 
Congolese soldiers. What are you going to do? If they are not 
prepared for that, then they might turn and walk away.
    Or, commanders should be trained by experts of the U.S. 
Armed Forces in what does ``protection of civilians under 
imminent threat'' means, because they are the ones who has to 
make the decisions to go after perpetrators.
    For instance, I remember a situation where 47 women and 
girls were locked up in their huts, and burned alive. We knew 
where the perpetrators were, but is there an imminent threat 
that they will do it again? That is the question, then, that a 
commander must ask himself before he starts to operate. If he 
doesn't understand; if he's not in the frame of mind of what 
``protection of civilians under imminent threat'' means, and 
``sexual/gender-based violence,'' he will not take action, 
because he says, ``It is not imminent.'' Well, if there is a 
precedent in the past, then they will do it again. So, that 
kind of training, that kind of making people aware, and that 
kind of frame of mind, is something that this act will help to 
develop.
    Senator Kaufman. Great.
    Ms. Soler and Dr. Gupta, what should we be most concerned 
about with regard to violence against women, in the 
international context--the scale of the brutality, the lack of 
services, lack of government prevention and protection? Which 
of these are----
    Ms. Soler. I think they're all a great concern. I think 
what we realize is, the level of violence and brutality is so 
widespread and so pandemic. We, as a nation, care deeply about 
stopping the spread of HIV/AIDS. We care deeply about that, but 
if we don't do something about stopping sexual violence, we 
won't be able to stop the spread of HIV/AIDS. It is related to 
all the issues we care about. And that's why I think it's 
really important.
    We've heard today about young girls walking to school and 
getting acid thrown at them. If they can't get to school, and 
they are being violated on their path to school, we're not 
going to change the world order. And that's what this is all 
about.
    So, whether it's stopping HIV/AIDS or getting young girls 
to school, if we don't stop violence, we won't get those things 
met.
    Dr. Gupta. Just to reiterate that, I think that violence 
against women is the single most significant barrier to women 
being able to access services or take advantage of all of the 
economic investments that we make in developing countries for 
women--which are limited, but even those that are there, they 
cannot access, or use as much, because of violence against 
them. So, it a single greatest barrier that is rooted in a 
social-normative context but has, also, links to poverty, to 
education, things that we can do something about.
    So, that is the point I wanted to make through my testimony 
today, that, in order to root out violence in a society, we 
need multiple economic-development strategies. We need 
education, we need health services to be aware that this could 
be a barrier, and be ready to respond to it. We need to be able 
to have community programs and civil society engagement, not 
just among women's organizations, but programs that include men 
and boys with women to, sort of, end the acceptability of 
violence against women. We need all of those things happening 
simultaneously.
    We often, in the United States, in foreign assistance, 
imagine that there is a single magic bullet, and somehow that 
seems more palatable, you know, if we can invest in one thing. 
This really requires a comprehensive approach, and I hope that 
that's the way the United States will take leadership.
    I also wanted to comment on something that was said earlier 
about the need for the United States--that Senator Kerry 
mentioned--about the need for the United States to take the 
high moral ground, to show moral leadership, internationally. I 
just want to point out that that will have much greater 
credibility if the United States ratifies CEDAW, the Convention 
for the Elimination of All Forms of Discrimination Against 
Women.
    [Applause.]
    Dr. Gupta. Without ratifying CEDAW, the United States lacks 
a certain international credibility to be a true global partner 
with other countries in calling attention to violence against 
women.
    Senator Kaufman. That's exactly--example of what--the 
things we have to do, going forward, just one of the examples.
    Can you talk--anybody talk about, kind of, the fact that, 
when you don't have--when you have violence against women in a 
country, it really hurts their economic development? Some of 
these countries are underdeveloped. There's a payoff, if they 
can deal with these kind of things, in terms of their economic 
development, right?
    Dr. Gupta. No question about it. There is an economic 
payoff, and the economic-efficiency argument, that you would 
increase economic productivity, is just the other side of the 
coin of human rights. It's--equity for women and economic 
efficiency go hand in hand. You can't get one without the 
other. So, it's not an either/or argument. We make the argument 
about investments in women giving us a high return, But that 
investment can only happen if countries believe in women's 
human rights.
    Senator Kaufman. Ambassador Steinberg, the chairman wanted 
me to follow up on your remarks about your experience as a 
peace negotiator and your failure to have women at the 
negotiating table. Could you please talk--elaborate on that a 
little bit, and some of the examples of where women have been 
included, and what the effect has been?
    Ambassador Steinberg. Mr. Chairman, unfortunately, there 
isn't a lot of empirical evidence in this area. There aren't 
enough data points. It's a very difficult argument to prove. 
But, any of us who have been involved in this exercise know for 
a fact that as you build civil society's--and in particular, 
women's--support for and engagement in an agreement, you create 
a better agreement that's easier to implement and that 
addresses the root causes of conflict.
    A few examples that I would cite of failure to do that. In 
the Darfur Peace Accords that were signed in 2006, there were 
six rounds of that negotiation where there wasn't a single 
woman involved in any aspect of it. In the seventh round, we 
got women to the table. I participated in training them to take 
part in that process. And they changed the agreement in some 
pretty significant ways, but by then, the agreement was pretty 
much set in stone and it was a flawed agreement. It did not 
include women participating in the process, it did not include 
Arab tribesmen, it did not include internally displaced people. 
And then, when the warring parties went on the ground and said 
to the Darfur people, ``We need your support for this,'' their 
response was, ``This isn't our agreement. This is the agreement 
of the military forces of the government and the military 
forces of the rebel groups,'' and the agreement was stillborn.
    The same phenomenon has occurred in Angola, and I would 
also argue that a very similar phenomenon took place in the 
Democratic Republic of the Congo. Women were finally involved, 
in the last part of a negotiation in Sun City, but they were 
shunted off into ante rooms when the real negotiations were 
taking place. And again, the failure to involve civil society 
in these efforts destroyed the concept of collective 
peacebuilding and thus undercut popular support for the 
agreement.
    One of the key steps that we need to take here, in 
addition, is to get more women as mediators and negotiators. 
UNIFEM has reviewed some 300 agreements signed over the course 
of the past couple of decades, and not a single woman led the 
negotiation for any of those agreements. Of those 300 
agreements, only 18 even referred to sexual violence against 
women in any way, shape, or form. No mention of sexual violence 
was made in agreements for Liberia, Sierra Leone, Somalia, and 
Bosnia, where sexual violence was at the heart of this process.
    We need to convince those who are negotiating the agreement 
of the simple fact that their peace process is going nowhere 
unless women are at the table, shaping the agreement and 
helping to implement it subsequently.
    Senator Kaufman. Great, thank you.
    General, you discussed the reasons why rape is used as a 
weapon of war. We talked about it a little earlier, in the 
first panel. It's destabilized communities, it prolongs 
conflict; that's clear. But, is it a tactic of war, where there 
is not a preexisting lack of respect and value in women?
    General Cammaert. Absolutely. Absolutely. I cannot agree 
more.
    Senator Kaufman. Is there anything we can do, knowing that 
that's going to happen in a country, to deal with the problem, 
and the cultural problem? Or is----
    General Cammaert. I always say that the problems in, for 
instance, the eastern part of the Congo, is a political 
problem. As long as the problems there are not addressed 
politically, and try to solve them militarily, there will never 
be peace. And the offensive against the FDLR-Interahamwe has 
raised 800,000 internally displaced people. And you hear, now, 
testimonies of women who are saying, ``In the village, we are 
raped by the FARDC,'' the Congolese army, ``and outside the 
village, we are raped by the FDLR-Interahamwe.'' That is the 
situation. And we have, on the record, testimonies of militias 
and rebels who are deliberately targeting communities to 
destroy the communities and put leverage on the government to 
give in to, and make concessions to, the rebel group. That is 
very, very alarming.
    Senator Kaufman. Can anybody talk about--How do you 
interpret these kind of acts against women and young girls 
continuing in so many countries, on so many continents? What's 
the driving force for this? And can you name the factors that 
we can do a better job of ameliorating this?
    Ms. Soler. Well, I think we have to do a better job. I 
think there are multiple factors--I mean, there are multiple 
factors in the United States----
    Senator Kaufman. Yes.
    Ms. Soler [continuing]. About why violence against women 
and girls exists. And I think that the one thing that we do 
know is, when the laws change and society says, ``No more,'' 
and it's unacceptable, and you put programs in place to prevent 
and intervene effectively, then you start seeing a reduction in 
the level of violence against women and girls.
    We saw it here in the United States. There was a report, 
that was released yesterday by the Bureaus of Justice 
Statistics; there's a 53-percent decline on adult aggravated 
assault against women, and that's because, many years ago, with 
your assistance, we put in place a comprehensive response.
    Is it because it's a learned behavior? Is it because it's 
endorsed by the culture in society? It's all of those things.
    But, what we do know is that there are programs in these 
countries around the world that work. And we do know, in our 
own country, when we put programs in place that work, we affect 
the problem.
    And the problem is so big, it is destroying so many lives, 
it is making sure that young girls are not getting to school, 
HIV/AIDS is spreading, and it is also a security problem, that 
we heard very clear on this panel and the panel before.
    So, whatever we need to do, we need to do it now. Now is 
the time. It is the time for our leadership as a country. It is 
a core value for Americans that we need to do something that is 
the destroying the lives of so many women and children around 
the world. And the good news is, we have programs that work, 
and, as my colleague said, we need to scale those up, because, 
when we scaled them up in this country, we started seeing 
change. And every girl and every woman and every child and 
every man, they deserve that around the world. And that's what 
this is all about. And that's what we need to do.
    Senator Kaufman. Dr. Gupta.
    Dr. Gupta. If I can just add to that. You know, we often 
hide behind the excuse that, ``The ill treatment of women is a 
cultural issue or it's a religious issue. And what can U.S. 
foreign assistance do about that?'' It's not--first of all, 
culture is not immutable.
    Senator Kaufman. Right.
    Dr. Gupta. Cultures can change.
    Second, we do know, from data and evidence and experience, 
that policies and programs can catalyze those changes, that 
civil society strengthening can catalyze those changes. So, we 
do know what to do. It's a question of being able to do it at a 
scale at which it needs to be done in order to bring about 
those changes, and to make the arguments that we need to make 
in order to make the case to governments that, if we--if the 
economic-cost argument is the one that works in a particular 
instance, we should make those costs.
    But, fundamentally, it's a devaluing of women's rights 
globally that's causing this problem. And we have to change 
that, because, as a world, we will all be held behind. All of 
this economic growth that you see in emerging economies is 
going to be capped at some point if women are dragging behind.
    Senator Kaufman. I think I ought to say, ``Yes we can,'' 
but I'm not going to. [Laughter.]
    Does anybody have any other--I mean, I can't top that. I'd 
like to end on those comments. Does anybody have anything else 
they want to add?
    Yes, Ambassador.
    Ambassador Steinberg. Mr. Chairman, I just want to make the 
point again that these are really national security issues that 
we're dealing with. And I wanted to give one example of that, 
from what is arguably one of the most important issues we're 
now facing, and that's the situation in Afghanistan.
    It is remarkable that the Taliban, right now, is making 
inroads with women's communities in that country, given its 
abhorrent record, by arguing that, ``You were safer, you were 
more secure, and you had less corrupt government, when we were 
in power.'' And if you look at the views of some people in that 
society, those arguments are actually having some resonance.
    In part, that is because the Government in Afghanistan, 
despite some sporadic and regional increases in girls' 
participation at school and women's participation in 
government, has essentially made a decision to empower warlords 
who have atrocious records against women in their past. They 
are now serving as governors, whereas, in reality, they should 
be imprisoned for their past activities. We've also seen a 
situation where the government has sacrificed the rights of 
women in exchange for political advantage, to buy off 
traditional opponents.
    For me, what is most important is that the Afghan 
administration has not made the argument that, in fact, women's 
rights are part of Afghan traditional culture and that they are 
not anti-Islamic. Women's rights are completely consistent with 
that society. It has ceded the debate to those who are arguing 
right now, erroneously, that such efforts are alien concepts 
being imposed on Afghanistan by the West and their Afghan 
puppets.
    Unless we change those attitudes, unless we encourage the 
administration in Kabul to take these issues seriously, to do 
more to empower women, and to hold accountable those who have 
committed abuses against them, this insurgency is just going to 
get worse and worse.
    Senator Kaufman. Yes. No, I think one of the key things to 
any counterinsurgency strategy--and that was--we're talking 
about--is governance and proper governance. I couldn't agree 
with you more. This is not a battle, in Afghanistan, between us 
and the Taliban. This is a battle between the government and 
the Taliban. And to the extent that the government doesn't 
behave properly and doesn't implement these kinds of things, 
we're going to lose that battle. So, I think it's absolutely 
key, and this is just a glaring example of how important it is 
for us--for the Kabul government to be on the right side of 
these issues.
    I want to really thank you all, not just for coming and 
testifying today--and also the two panelists from the first 
panel--for everything you do in this area. It's absolutely 
essential, as you say, for--not just for economic reasons, not 
just for equity reasons, not just for all the reasons that we 
know it's the right thing to do, but even for national security 
reasons. It's the right thing to do. We did change the culture 
in the United States with the Violence Against Women Act. We 
can change the culture around the world with the International 
Violence Against Women Act.
    Thank you very much.
    It's adjourned.
    [Applause.]
    [Whereupon, at 5 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


 Prepared Statement of Hon. Richard G. Lugar, U.S. Senator from Indiana

    I thank Senator Kerry for calling this hearing, and I again commend 
President Obama, Vice President Biden, and Secretary Clinton on the 
creation of the new position of Ambassador at Large for Global Women's 
Issues. I appreciate the work of Melanne Verveer as she has endeavored 
to raise the profile of women's issues and to strengthen the commitment 
of the U.S. Government to combating violence against women.
    One of the biggest obstacles hampering development throughout the 
world is violence against women. In addition to the devastating 
physical and emotional impact of such violence, it often prevents girls 
from going to school, stops women from holding jobs, and limits access 
to critical health care for women and their children. Programs to 
address poverty and disease will be seriously encumbered as long as 
women face violence in their homes and communities.
    Violence and sexual abuse during conflicts, in post-conflict 
situations, and in refugee camps are a particular concern. Reports of 
refugee women being raped while collecting firewood, soldiers sexually 
abusing girls through bribery with token food items, or women subjected 
to torture as a tool of war are horrific and all too common. We should 
place a high priority on improving our ability in crisis situations to 
work effectively with peacekeeping forces and groups on the ground to 
establish safeguards for vulnerable women.
    During the last Congress, I joined with then-Senator Biden in 
introducing the International Violence Against Women Act. Among other 
provisions, this legislation provided for the creation of the Office 
for Women's Global Initiatives. We envisioned that this position would 
monitor and oversee all U.S. programs and aid abroad that deal with 
women's issues, including gender-based violence. As the United States 
seeks to improve its efforts to combat international violence against 
woman, we should have a much better understanding of the scope of U.S. 
resources that are currently being applied to the problem. A variety of 
agencies devote resources and talent to this issue, but their 
coordination has been haphazard. By centralizing oversight in the 
Office for Women's Global Initiatives, we sought to improve the 
prioritization and coordination of our policy.
    I am eager to learn more about the Obama administration's vision 
for combating this problem. The committee would benefit from 
understanding more clearly how U.S. efforts are being coordinated 
currently and where additional resources can be used most productively.
    I thank our witnesses and look forward to their testimony.
                                 ______
                                 

            Prepared Statement of Hon. Christopher J. Dodd,
                     U.S. Senator From Connecticut

    I would like to thank Chairman Kerry for holding this very 
important hearing today, and I would like to welcome all of our 
witnesses for their testimony. The subject of this hearing is a very 
important one to me, and I am glad to see this committee and this 
administration address it.
    For too long, women have gotten the short shrift in development and 
foreign policy. Women's rights, women's health, and violence against 
women have a history as being designated and denigrated as ``soft'' 
issues.
    The goal of ensuring that all women have access to health care, 
equal protection under law, and the freedom to participate and thrive 
in society, has too often been seen as a noble but ancillary aspect of 
foreign policy--not worthy of our full attention, especially at a time 
when we are fighting two wars, struggling with an international 
financial crisis, and confronting the scourge of HIV/AIDS and 
terrorism.
    The unassailable truth, however, is that promoting women's rights, 
women's health, and women's empowerment are not simply idealistic moral 
goals, unconnected to our realpolitik foreign policy and national 
interests. Rather, they are some of our most effective tools in 
achieving America's key foreign policy goals and meeting our most 
difficult challenges.
    When women thrive, everyone thrives; societies are more stable, 
economic prosperity increases, families are stronger, maternal and 
child death rates fall and repressive governments lose their grip. 
Improving women's and maternal health, stopping the practices of child 
marriage and female genital mutilation, and combating the trafficking 
of women and girls are not just fundamental American ideals, they are a 
strategic imperative.
    For these reasons, I am thrilled to see that the Obama 
administration has kept its promise to make the role of women central 
to our foreign policy. The historic creation of an Ambassador at Large 
for Women's Issues is a tremendous step forward, and I can think of no 
one better than Melanie Verveer to fill that role. Secretary Clinton's 
efforts to bring women's issues to the front and center of the 
international debate has also done much to highlight the tremendous 
importance of women in our foreign policy.
    Throughout my career in public service, I have fought for the 
rights of women both at home and abroad, and I am happy to join my 
colleagues, once again, in supporting the International Violence 
Against Women Act. This is a critical piece of legislation which seeks 
to protect, and, more importantly, empower the world's mothers and 
daughters. In the coming days, I also plan to introduce the Newborn, 
Child and Mother Survival Act, which will empower USAID to implement 
programs ensuring that mothers are healthy enough not just to survive 
pregnancy and labor, but also to thrive alongside their children. I 
would like to once again thank our witnesses for joining us today. I 
look forward to a productive discussion.
                                 ______
                                 

            Prepared Statement of Hon. Russell D. Feingold,
                      U.S. Senator From Wisconsin

    I am pleased that Chairman Kerry and Ranking Member Lugar are 
holding today's hearing to look at how the United States can do more to 
stop violence against women and girls around the world. Tragically, 
such violence remains commonplace in many parts of the world, even in 
our own country. Earlier this year, Senator Boxer and I chaired a joint 
subcommittee hearing to put the spotlight on rape and violence against 
women in the eastern region of the Democratic Republic of Congo and 
Sudan. The stories we heard were heartbreaking. In these and many other 
conflict zones, rape and other forms of gender-based violence are not 
just outgrowths of war and its brutality--they are weapons of war.
    We need to look closely at how the U.S. Government and the U.N. can 
enhance our capabilities to anticipate, prevent, and respond to sexual- 
and gender-based violence. This includes ensuring that we integrate 
gender-sensitive approaches into all of our programs, especially 
peacekeeping and security sector reform. I know this is a priority for 
Secretary Clinton, demonstrated yesterday as she chaired a historic 
session of the U.N. Security Council on combating sexual violence in 
armed conflict. I look forward to working with the chairman, the 
ranking member, and my colleagues on this committee in the months ahead 
to support and strengthen the Secretary's efforts.
                                 ______
                                 

         Prepared Statement of U.S. Senator Richard J. Durbin,
                       U.S. Senator From Illinois

    I thank Chairman Kerry for holding this important hearing on a 
pervasive human rights abuse that millions of women and girls face 
around the world. Tragically, sexual violence has been used in a 
systematic and deliberate way to humiliate, expel and destroy 
communities in conflicts around the globe. Mass rape has been a feature 
common to recent conflicts in Bosnia, Darfur, the Democratic Republic 
of Congo, East Timor, Rwanda, and Sierra Leone. It is appalling that 
today women and girls are being raped in conflict situations around the 
world. This reflects a collective failure to stop the use of women's 
bodies as a battleground.
    As the chairman of the Senate Judiciary Committee's Subcommittee on 
Human Rights and the Law, I have focused especially on legal options 
for holding accountable those who use rape as a military tactic. Last 
Congress, I held a hearing in the Human Rights Subcommittee on ``Rape 
as a Weapon of War: Accountability for Sexual Violence in Conflict.''
    The hearing made clear that wartime rape is not inevitable. The 
widespread prevalence of sexual violence in recent conflicts results in 
part from the lack of accountability for those who use rape to pursue 
military or political goals. Government and rebel forces violate human 
rights with impunity, perpetuating the stigma that surrounds these 
crimes.
    Historically, wartime sexual violence was tolerated as an 
unfortunate but unavoidable consequence of conflict. Throughout the 
20th century, rape and other forms of sexual violence were included in 
increasingly specific terms in international agreements on the conduct 
of war. Prejudice and misconceptions meant these crimes were initially 
framed as private acts violating family dignity and honor, rather than 
the violent public crimes they are.
    The International Criminal Tribunal for the former Yugoslavia and 
the International Criminal Tribunal for Rwanda made significant 
progress by prosecuting perpetrators of sexual violence. That we have 
moved beyond the not-so-distant debate about whether sexual violence in 
conflict is a war crime represents an important step.
    Despite these positive developments, wartime sexual violence and 
the experience of those women and men who survive it remain invisible 
far too often. While a growing number of perpetrators of wartime sexual 
violence have been prosecuted, a much larger number have escaped 
accountability. The average wartime rapist runs very little risk of 
being prosecuted. The United States and other countries must play a 
greater role.
    I am sorry to say that if a foreign warlord who engaged in mass 
rape found safe haven in our country today, he would probably be beyond 
the reach of our laws. It is not a crime under U.S. law for a non-U.S. 
national to perpetrate sexual violence in conflict against non-U.S. 
nationals, so the U.S. Government is unable to prosecute such 
perpetrators of wartime rape who are found in our country.
    Earlier this year, I introduced S. 1346, the Crimes Against 
Humanity Act of 2009. This bill would make it a violation of U.S. law 
to commit a crime against humanity, which includes mass rape and other 
forms of sexual violence in conflict. The Crimes Against Humanity Act 
would help ensure that our country does not become a safe haven for the 
perpetrator of sexual violence in conflict. I look forward to working 
with my colleagues to enact it into law.
    In addition to punishing individual perpetrators, governments that 
tolerate and fail to take steps to stop wartime sexual violence must be 
held accountable for their actions. At the very least, we must ensure 
that U.S. tax dollars do not fund state armies that fail to prevent 
their forces from engaging in mass rape.
    We must work to end the use of rape as a weapon of war, but as long 
as the practice persists, we should support programs that provide 
protection, medical care, psychological services and legal remedies to 
survivors of wartime sexual violence.
    I am pleased that Chairman Kerry has organized this hearing to call 
attention to this issue. I hope this hearing will bring us a step 
closer to ending impunity for wartime sexual violence and making the 
world safer for women and girls at risk of sexual violence.
                                 ______
                                 

Responses of Ambassador at Large Melanne Verveer to Questions Submitted 
                    by Senator Robert P. Casey, Jr.

    Question. Training of Afghan Forces: Women and girls in many parts 
of Afghanistan and the region are confronted daily with violence. 
Nearly 90 percent of Afghanistan women suffer from domestic abuse, and 
unfortunately, impunity prevails for almost all of their perpetrators. 
As the United States Government debates its strategy going forth in 
Afghanistan, an aspect of this debate must focus on empowering women. 
It is important that women can meet their full potential because they 
are a necessary element if Afghanistan is going to succeed in the 
future.

  <bullet> Ambassador Verveer, in your statement you outline a number 
        of initiatives that the United States is taking to fund NGOs 
        that are women-focused. What, if any, initiatives are you 
        taking to ensure that when the United States trains the Afghan 
        police and armed forces that these forces are also being taught 
        about gender equity and protecting not committing crimes 
        against women and girls? How can this committee help you ensure 
        that this type of training is occurring?

    Answer. Your assessment is absolutely correct about the importance 
of training police and armed forces on gender equity in order to 
protect women and girls. The State Department's Bureau for 
International Narcotics and Law Enforcement Affairs (INL) implements a 
number of programs worldwide to help develop post-conflict law 
enforcement and criminal justice systems, including the capacity to 
address gender issues.
    It is critical to reform the security sector and sensitize the 
police and military on human rights and gender-based violence because 
they are supposed to be at the forefront, ensuring that these acts 
don't occur. In post-conflict societies, we often see increased rates 
of violence against women including incidents of domestic violence, 
rape (often used as a political tool of oppression), and other criminal 
attacks. Therefore, gender issues are fundamentally intertwined with 
institutional and societal reform of the criminal justice sector.
    In 2005, INL opened the first Family Response Unit (FRU) in Kabul 
to help address gender-based violence and family issues such as 
kidnappings, spousal abuse, rape/sexual abuse, and forced marriage. The 
FRUs also provide women, children, and families a safe and supportive 
place to file a police report and offer mediation and resources to 
families to prevent future violence.
    Today, INL supports police mentors at 22 FRUs attached to police 
stations in seven provinces (Kabul, Balkh, Herat, Konduz, Jawzjan, 
Takhar, and Bamiyan). Eleven full time American civilian police mentors 
and three mentor supervisors provide training and mentoring to the 
officers from each FRU, who are predominantly female, including 
specialized assistance in addressing domestic violence cases. Police 
mentors are also actively working to link FRUs increasingly with 
shelters, social services, and prosecutors who can try gender-based 
violence cases. Since their establishment, the FRUs have handled an 
increasing number of investigations, including cases of domestic 
violence. For example, in 2008 FRU officers conducted nearly 800 
investigations nationwide; in 2007, 348 cases; and in 2006, 199 cases. 
As of September 2009, they investigated 340 cases.
    Since September 2007, INL has provided funding to an Afghan NGO to 
establish and operate a transit shelter for female victims of gender-
based violence. As part of this grant, the organization designed a 
domestic violence training curriculum for police officers that 
introduces types of gender-based violence, women's rights under the 
law, procedures for dealing with victims of domestic violence with 
sensitivity and respect, and available government and nongovernmental 
resources for women in need, including how to use the shelter's 
referral system. In 2008, the organization trained approximately 250 
male and female police officers in Kabul. Based on the successful 
outcome of this pilot training program, this program will provide the 
training to an additional 300 police officers in 2009.
    INL also established a Women's Police Corp (WPC) curriculum to 
address the special needs of female police trainees. WPC basic 8-week 
training is currently held in a dedicated women-only police training 
facility in Kabul. Since the WPC training began in December 2008, 107 
female police officers have successfully completed the WPC training 
course. From 2003 through July 31, 2009, a total of 525 female ANP 
(including the 107 who completed the WPC training) have participated in 
INL-led trainings.
    While not directly related to your question, I think it's important 
to mention the important work INL is doing related to prison reform, 
including women's prisons, in Afghanistan. Through the Corrections 
System Support Program (CSSP), INL is training female corrections 
officers to improve their professionalism and the conditions for female 
prisoners. Through CSSP, one doctor was provided to Kabul Women's 
Prison and four vocational and one literacy instructor to the Herat 
Women's Prisons. When I was in Afghanistan earlier this summer, I saw 
firsthand the product of INL's work at the women's prison in Kabul. 
Many of the inmates had been charged for simply committing the 
``crime'' of escaping abuse at home. They are receiving training and 
vocational education which will help empower them economically after 
they leave prison.

    Question. I applaud the Afghanistan Parliament's passage of the 
Elimination of Violence Against Women Act in Afghanistan in September 
2009, but I am concerned about the Afghan Government's ability and 
willingness to enforce the law. What is the United States doing to 
ensure that the Afghan justice system is doing its part to enforce 
women's rights laws?

    Answer. Promoting an independent judiciary and the rule of law are 
critical components to addressing gender-based violence. When victims 
are not educated about their rights under the law, have little judicial 
recourse and perpetrators are met with impunity, it helps create an 
environment where human rights abuses and violence against women are 
rampant.
    The $26.3 million Ambassador's small grants program will provide 
technical assistance and small grants to women-focused Afghan NGOs in 
accordance with the National Action Plan for the Women of Afghanistan 
(NAPWA). We will make sure that some of this funding helps build the 
capacity of Afghan NGOs at the grassroots level to engage in advocacy 
efforts for the enforcement of women's rights laws, including the 
Elimination of Violence Against Women (EVAW) law. In recent meetings 
I've had with Afghan women judges and leaders of civil society, they 
underscored the need for capacity-building so that they can help ensure 
laws are enforced and are effective.
    To complement its effort to train police about domestic violence, 
INL is actively engaged in the broader effort to reform and build 
Afghan justice sector institutions' capacity to respond to violations 
of the law, including gender crimes. INL has spearheaded several 
efforts specifically geared toward improving Afghanistan's legal 
framework to protect women and girls and building the justice sector's 
capacity to respond to cases of gender crimes and domestic violence. My 
office is working closely with INL to ensure that women's empowerment 
is part of the larger rule of law strategy. In 2008 and 2009, INL 
reviewed Afghanistan's draft Shia Family law and the EVAW law and 
provided recommendations to enhance protections for women; mentored 
male and female defense attorneys; conducted a series of gender justice 
victim advocacy trainings for government and nongovernmental personnel 
in Nangarhar and Parwan provinces; and conducted gender justice 
trainings for justice sector personnel in Kabul, Herat, Nangarhar, 
Logar, and Baghlan provinces.
    Both INL and my office remain committed to further enhancing the 
capacity of the broader justice sector in Afghanistan to respond to 
gender crimes and domestic violence. To this end, 17 Afghan women 
judges have participated in INL-sponsored legal education study trips 
to the United States that focus on judicial leadership for women and 
gender quality. This effort also seeks to support Afghanistan's women 
judges in the reestablishment of an Afghan Women Judges Association. 
While a 2007 Supreme Court decree prohibits Afghan judges from joining 
professional associations, the Department of State is raising this 
issue with the Government of Afghanistan and urging the Supreme Court 
to reestablish this association, which will be a powerful professional 
resource for Afghan women judges.
    INL also provides training and mentoring on a variety of criminal 
law issues to female and male Afghan lawyers, police officers, and 
other Afghans throughout the country targeted at those who deal with 
gender-based violence and crimes against women through its Justice 
Sector Support Program (JSSP). JSSP supports specialized gender justice 
trainings as well as the integration of gender themes and violence 
against women into their general training courses. In 2008, 331 women 
(and 1,476 men) participated in JSSP trainings and professional 
development opportunities, including gender justice. From January to 
mid-August 2009, 109 women (and 905 men) participated in JSSP trainings 
and professional development opportunities.

    Question. As you stated in your testimony, you are working with 
Ambassador Eikenberry to provide grants to NGOs who focus on women's 
issues in Afghanistan. What actions are you taking to amplify and 
replicate the positive results of these initiatives throughout 
Afghanistan?

    Answer. As I mentioned in my testimony, Ambassador Eikenberry and I 
announced the start of the Ambassador's small grants program to support 
gender equality in Afghanistan. The 3-year, $26.3 million program will 
provide technical assistance and small grants to women-focused Afghan 
NGOs in accordance with the National Action Plan for the Women of 
Afghanistan (NAPWA). The program will offer flexible, rapid-response 
grants to NGOs that address the needs of Afghan women in the areas of 
education, health, skills training, counseling on family issues, and 
public advocacy.
    In both organization and focus, the program is to be Afghan-led as 
well as integrated into the work of the Embassy, including that of the 
PRTs based throughout Afghanistan. USAID will manage $20.3 million of 
the program over 26 months through a cooperative agreement to the 
privately owned NGO Creative Associates. This grant will be implemented 
in close coordination with Embassy personnel to ensure that the grant 
specifications are met and that women throughout the country benefit 
from the funds.
    An additional fund ($500,000 for FY 2009) will be provided to the 
Embassy's Political and Public Affairs section to provide rapid small 
grants to women's political and human rights advocacy organizations. 
The Embassy will pay particular attention to ways they can help Afghan 
women address the demands of their country's fluid political situation 
and to respond in particular to sudden or unforeseen legislative and 
other developments that require immediate action. Funds will also be 
used to support organizations and projects based on recommendations 
from Senior Embassy leader travel throughout the provinces and 
recommendations from Senior Civilian Representatives and PRTs. Directly 
associating the Embassy with regionally and provincially targeted 
grants to women's and human rights organizations will send a strong 
message that the U.S. supports these issues, thus raising the profile 
of women's rights.
    My office is working closely with our Embassy in Kabul and 
colleagues at USAID to ensure that our assistance is well coordinated, 
addresses the major issues confronted by women and girls, and is 
sustainable. In addition, we are committed to ensuring that the $150 
million allocated for Afghan women and girls in the FY 2009 budget 
addresses their specific needs at the grassroots level and throughout 
Afghanistan, and are working to ensure that the programs are 
implemented with specific outcomes to ensure the most impact.
    By focusing our attention on the women and girls of Afghanistan, we 
are emphasizing the message that the United States understands that 
progress in Afghanistan must be measured not just in military terms, 
but also in terms of the social, political, and economic participation 
of women in rebuilding Afghanistan and in safeguarding their human 
rights.

    Question. Technical Capacity: The International Violence Against 
Women's Act would codify in law your current office, the Office of 
Global Women's Issues. In doing so, it would also create a Women's 
Development Advisor at the U.S. Agency for International Development. 
Whenever we discuss creating new offices we must ensure that they have 
the human capital necessary to fulfill the intended mission.

  <bullet> The mission that the Office of Global Women's Issues will 
        carry out is important. Ambassador Verveer, at this time how 
        many employees at the Department of State and USAID work on 
        gender issues? How many employees would you need in addition to 
        the ones you have now to carry out your mandate?

    Answer. The Office of Global Women's Issues (S/GWI) currently has 
11 full-time professional and administrative staff. USAID's Office of 
Women in Development (WID) has nine.
    These numbers are small, but they do not represent the entire 
picture. S/GWI and WID staff work full time on gender issues, but a 
broad network of offices with whom we coordinate incorporate gender 
issues into their wider portfolios.
    Within the State Department, a number of offices regularly address 
gender issues within the scope of their other work, including: the 
Bureau of Democracy, Human Rights, and Labor (DRL), the Office to 
Monitor and Combat Trafficking in Persons (G/TIP), the Bureau of 
Population, Refugees and Migration (PRM), the Bureau of International 
Organization Affairs (IO), the Economic Bureau (EB), and the Bureau of 
Public Diplomacy and Public Affairs (R). Offices within the Department 
that have regional responsibilities--Africa (AF), East Asia/Pacific 
(EAP), European and Eurasian Affairs (EUR), Near Eastern Affairs (NEA), 
South and Central Asian Affairs (SCA), and Western Hemisphere Affairs 
(WHA)--also include women's issues as part of their missions to cover 
the totality of their geographic area, and often support embassy-based 
programs for women's empowerment.
    Within USAID, a number of offices other than WID also have some 
programs on gender issues, such as the Office of Foreign Disaster 
Assistance (OFDA), which supports protection and emergency health 
programs in the Democratic Republic of Congo's North Kivu and Orientale 
provinces, including medical services for internally displaced persons 
(IDPs) and gender-based violence (GBV) survivors. This scope is further 
widened by USAID's partner NGOs.
    Although we are seeking a few additional positions within S/GWI for 
additional programmatic and coordination work, the most effective 
progress toward fulfilling our mandate will come from our efforts to 
mainstream gender issues and awareness into each office and bureau 
within the State Department--in effect, turning a large cadre of 
talented officers throughout the Department into part-time adjunct 
employees of our office.

                                  <all>

</pre></body></html>
